No. _____
IN THE
Supreme Court of the United States
TECHNICAL EDUCATION SERVICES INC. d/b/a
AVIATION INSTITUTE OF MAINTENANCE, et al.,
Petitioners,
v.
STEVEN PINKERTON,

Respondent.

ON PETITION FOR WRIT OF CERTIORARI TO THE
COURT OF APPEALS OF MISSOURI, WESTERN DISTRICT

PETITION FOR WRIT OF CERTIORARI

Thomas M. Lucas

Counsel of Record

JACKSON LEWIS P.C.
500 E. Main Street, Suite 800
Norfolk, Virginia 23510
(757) 648-1445
Thomas.Lucas@jacksonlewis.com

Counsel for Petitioners

i
QUESTION PRESENTED
Under the Federal Arbitration Act and this
Court’s decisions, parties have broad discretion to
delegate threshold disputes of arbitrability, including
the enforceability of the arbitration agreement giving
rise to the arbitration, to an arbitrator.
The question presented is:
Whether a dispute over the collateral estoppel
effect of a prior arbitration decision must be submitted to and decided by an arbitrator pursuant to the
arbitration agreement’s broad delegation provisions.

ii
PARTIES TO THE PROCEEDING
Petitioners are Technical Education Services,
Inc. d/b/a/ Aviation Institute of Maintenance, Adrian
Rothrock, and Gerald Yagen, defendant-appellants
below.
Respondent is Steven Pinkerton, plaintiffappellee below.
RULE 29.6 STATEMENT
Petitioner Technical Education Services, Inc.
is a privately held corporation and has no parent
corporations, subsidiaries, or affiliates that have issued shares to the public.
STATEMENT OF RELATED CASES


Pinkerton v. Technical Education Services, Inc.,



Pinkerton v. Technical Education Services, Inc.,



Pinkerton v. Technical Education Services, Inc.,

No. SC98894, Supreme Court of Missouri. Order
entered March 2, 2021.
No. WD83594, Missouri Court of Appeals, Western District, Division Four. Judgment entered
November 24, 2020.
No. 1916-CV20843, Circuit Court of Jackson
County, Missouri at Kansas City. Order entered
February 11, 2020.

iii


State ex rel. Steven Pinkerton v. Hon. Joel P.
Fahnestock, No. SC94822, Supreme Court of Missouri. Judgment entered October 31, 2017.



Pinkerton v. Technical Education Services, Inc.,

No. 1416-CV10007, Circuit Court of Jackson
County, Missouri at Kansas City. Order entered
February 2, 2015.

iv
TABLE OF CONTENTS
QUESTION PRESENTED......................................... i
PARTIES TO THE PROCEEDING .......................... ii
RULE 29.6 STATEMENT ......................................... ii
STATEMENT OF RELATED CASES ...................... ii
TABLE OF APPENDICES ....................................... v
TABLE OF AUTHORITIES ..................................... vi
PETITION FOR A WRIT OF
CERTIORARI ............................................................ 1
OPINIONS BELOW .................................................. 1
JURISDICTION ........................................................ 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ....................................... 2
STATEMENT OF THE CASE .................................. 2
REASONS FOR GRANTING THE PETITION ...... 6
I.

The Missouri Court of Appeals’
Determination Contravenes the
FAA and the Decisions of This
Court. .................................................... 6

CONCLUSION .......................................................... 8

v
TABLE OF APPENDICES
Appendix A - Denial of Review of the Supreme
Court of Missouri, No. SC98894 (March 2,
2021) ....................................................................... 1a
Appendix B - Opinion of the Missouri Court of
Appeals, Western District, Division Four, No.
WD83594 (Nov. 24, 2020)........................................ 3a
Appendix C - Order of the Circuit Court of Jackson County, Missouri at Kansas City, No. 1916CV20843 (Feb. 11, 2020) ....................................... 30a
Appendix D - Opinion of the Supreme Court of
Missouri, No. SC 94822 (Oct. 31, 2017) ................ 36a
Appendix E - Opinion of the Circuit Court of
Jackson County, Missouri at Kansas City, No.
1416-CV10007 (Feb. 2, 2015) ................................ 96a
Appendix F - Statutory Provisions Involved ...... 109a

vi
TABLE OF AUTHORITIES
Page(s)
CASES

Clark v. Pennsylvania, 128 U.S. 395 (1888)............... 1
Dean Witter Reynolds Inc. v. Byrd, 470 U.S.

213 (1985) ............................................................... 6

Henry Schein, Inc. v. Archer & White Sales,
Inc., 139 S. Ct. 524 (2019) ...................................... 6
Howsam v. Dean Witter Reynolds, 537 U.S.

79, 85 (2002) ........................................................... 6

Rent-A-Center, West, Inc. v. Jackson, 561

U.S. 63 (2010) ......................................................... 6

STATUTES
9 U.S.C. § 2 .................................................................. 6
9 U.S.C. § 3 .................................................................. 6
28 U.S.C. § 1257 .......................................................... 1
OTHER AUTHORITY
Revised Uniform Arbitration Act of 2000 §
6, comment 2 .......................................................... 6

1
PETITION FOR A WRIT OF CERTIORARI
Petitioners Technical Education Services, Inc.
d/b/a Aviation Institute of Maintenance, Adrian
Rothrock, and Gerald Yagen (“AIM”) respectfully petition this Court for a writ of certiorari to review the
judgment of the Supreme Court of Missouri in this
case.
OPINIONS BELOW
The March 2, 2021 en banc decision of the Supreme Court of Missouri (Docket No. SC98894) to
deny AIM’s application to transfer the matter from
the Missouri Court of Appeals is unreported, but
available at 2021 Mo. LEXIS 77, and is included in
Appx. at 1a-2a. The November 24, 2020 panel opinion of the Missouri Court of Appeals (Docket No.
WD83594) is also unreported, but available at 2020
Mo. App. LEXIS 1475, and is included in Appx. at
3a-29a. The February 11, 2020 decision of the Circuit Court of Jackson County, Missouri (Case No.
1916-CV20843) denying AIM’s Motion to Compel Arbitration is unreported, but is included in Appx. at
30a-35a.
JURISDICTION
This Court has jurisdiction pursuant to 28
U.S.C. § 1257. In this case, the Supreme Court of
Missouri denied review of the matter on appeal from
the Missouri Court of Appeals on March 2, 2021.
Thus, for purposes of jurisdiction under 28 U.S.C. §
1257, the opinion and order of the Missouri Court of
Appeals is a final, appealable decision. See Clark v.

2
Pennsylvania, 128 U.S. 395, 396 (1888). Under this

Court’s Order dated March 19, 2020, the deadline to
file any petition for a writ of certiorari due on or after the date of this order is extended to 150 days
from the date of the lower court judgment, order
denying discretionary review, or order denying a
timely petition for rehearing. Accordingly, the deadline to file this petition is July 30, 2021.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Federal Arbitration Act, 9 U.S.C. §§ 2–4. See Appx.
at 109a-112a.
STATEMENT OF THE CASE
This case raises the issue of a court’s power to
decide threshold issues of arbitrability under the
FAA where those issues have been clearly delegated
by the parties to an arbitrator. Missouri state courts
improperly held that, in the face of an agreement by
the Parties to arbitrate all issues, including threshold issues of arbitrability such as collateral estoppel,
such arbitrability issues were properly within the
purview of the courts.
AIM owns and operates a private educational
facility in Kansas City, Missouri. In 2009, Steven
Pinkerton (“Pinkerton”) emailed AIM to request information about enrolling in one of AIM’s programs
to become an aircraft mechanic. An admissions representative met with Pinkerton to tour the campus,
after which Pinkerton submitted an application for
admission to AIM’s program. Pinkerton enrolled in

3
AIM’s Aviation Maintenance Technical Engineer
(“AMTE”) Program, and executed a two-page Student
Enrollment Agreement.
In signing the Student Enrollment Agreement,
Pinkerton agreed to an arbitration agreement contained therein, which provides:
Arbitration Agreement: I agree that any controversy, claim or dispute of any sort arising
out of or relating to matters including, but
not limited to: student admission, enrollment, financial obligations and status as a
student, which cannot be first resolved by
way of applicable internal dispute resolution
practices and procedures, shall be submitted
for arbitration, to be administered by the
American Arbitration Association … in accordance with its commercial arbitration
rules.1 See Appx. at 3a.

As the Supreme Court of Missouri explained in State ex rel.
Pinkerton v. Fahnestock, “[a]t the time the parties signed the

1

underlying agreement, the ‘Commercial Arbitration Rules with
Supplementary Procedures for Consumer-Related Disputes’
governed consumer arbitration disputes. The ‘Supplementary
Procedures for Consumer-Related Disputes’ provided that the
‘AAA’s most current rules will be used when the arbitration is
started.’ In 2014, the AAA replaced the ‘Supplementary Procedures for Consumer-Related Disputes’ with ‘Consumer Arbitration Rules.’” 531 S.W.3d 36, 40 n.2 (Mo. 2017). Those Rules
state that “The arbitrator shall have the power to rule on his or
her own jurisdiction, including any objections with respect to
the existence, scope, or validity of the arbitration agreement or
to the arbitrability of any claim or counterclaim.” American

4
Nearly six months after his enrollment with
AIM, Pinkerton executed a second Student Enrollment Agreement (“2010 Enrollment Agreement”), in
which he again agreed to arbitrate any and all disputes related to his enrollment and course of study
at AIM. Id.
Despite his agreement to arbitrate, Pinkerton
filed a lawsuit in 2014 in the Circuit Court of Jackson County, Missouri (Case No. 1416-CV10007) (the
“2014 Lawsuit”) against AIM. See Appx. at 96a. In
light of the arbitration agreements, AIM filed a motion to compel arbitration and stay the proceedings.

See id.

The Circuit Court held that the arbitration
agreement contained a valid, enforceable delegation
provision and, therefore, threshold questions of arbitrability were delegated to an arbitrator. Id. at 108a.
Pinkerton appealed, and the Supreme Court of Missouri held that the “arbitration agreement clearly
and unmistakably evidences the Parties’ intent to
delegate threshold questions of arbitrability to the
arbitrator,” and sustained the Missouri Circuit
Court’s Order compelling arbitration. Appx. at 36a.
The Parties proceeded to arbitration, where
the Arbitrator determined that the arbitration
agreement was unenforceable, sending the Parties
back to court. Id. at 32a. After the court granted
Arbitration Association, Consumer Arbitration Rules, at 17
(2014).

5
AIM’s motion to dismiss two of Pinkerton’s causes of
action, Pinkerton voluntarily dismissed the 2014
Lawsuit without prejudice. Id. at 32a-33a.
Three days after his voluntary dismissal, on
July 26, 2019, Pinkerton filed the instant lawsuit
against AIM (the “2019 Lawsuit”), asserting three of
the same causes of action originally alleged in the
2014 Lawsuit. See Appx. at 32a. AIM filed a Motion
to Dismiss or, in the Alternative, to Compel Arbitration and Stay the Proceedings pursuant to the parties’ arbitration agreement. See generally Appx. at
30a-35a. In response, Pinkerton asserted that the
Arbitrator’s decision in the prior lawsuit was a final
ruling on the merits, which precluded AIM from
compelling arbitration. The trial court denied AIM’s
Motion to Compel and held that Defendants were collaterally estopped from compelling arbitration. Id. at
33a-34a.
AIM appealed to the Missouri Court of Appeals. See Appx. at 3a-29a. On appeal, AIM argued
that under the FAA and this Court’s precedent, the
issue of any collateral estoppel effect of the prior arbitration decision must be submitted to the arbitrator for decision. Id. at 9a. The Court of Appeals affirmed the trial court’s order, concluding that AIM
was estopped from compelling arbitration in light of
an Arbitrator’s prior determination. See generally
Appx. at 3a-29a. AIM petitioned the Supreme Court
of Missouri to accept transfer of the matter to that
court for review, but the Supreme Court of Missouri
denied that petition. Appx. at 1a.
This petition for a writ of certiorari followed.

6

REASONS FOR GRANTING THE PETITION
I.

The Missouri Court of Appeals’ Determination Contravenes the FAA and the Decisions of This Court.

Under the Federal Arbitration Act (“FAA”),
the decision to arbitrate disputes is strictly a matter
of contract between parties. 9 U.S.C. § 2. Indeed,
where parties have properly agreed to submit their
disputes to an arbitrator, a court must stay its proceedings in the matter and compel arbitration upon
motion of one of the parties. Id. § 3. Courts have no
discretion under the FAA to deny a motion to compel
arbitration where the parties have agreed to submit
the dispute at hand to arbitration. Id.; see also Dean
Witter Reynolds Inc. v. Byrd, 470 U.S. 213, 218
(1985).
This Court has made clear that “parties can
agree to arbitrate ‘gateway’ questions of arbitrability,
such as whether the parties have agreed to arbitrate
or whether their agreement covers a particular controversy” by way of a delegation clause. Rent-ACenter, West, Inc. v. Jackson, 561 U.S. 63, 68-69
(2010); see also Henry Schein, Inc. v. Archer & White
Sales, Inc., 139 S. Ct. 524, 527 (2019). This Court
has also noted that questions of arbitrability include
“prerequisites such as time limits, notice, laches, estoppel, and other conditions precedent to an obligation to arbitrate.” Howsam v. Dean Witter Reynolds,
537 U.S. 79, 85 (2002) (quoting Revised Uniform Ar-

7
bitration Act of 2000 § 6, comment 2) (emphasis added). Such issues are those which the parties would
ordinarily expect a court to decide. Id. at 84. Collateral estoppel is one such issue, but one which the
parties delegated in their contract to an arbitrator
for decision.
In this case, the Parties agreed to delegate any
threshold questions of arbitrability to an arbitrator
by incorporating the AAA Commercial Rules into
their arbitration agreements. As this Court has stated, threshold questions of arbitrability include claims
of estoppel, and the FAA obligates the Missouri trial
court to compel arbitration. The question of whether
a previous arbitrator’s decision on a preliminary issue, not a final decision on the merits, in a prior lawsuit operates to foreclose arbitration is one for an arbitrator, not the trial court. The Missouri Court of
Appeals therefore erred when it affirmed the trial
court’s order denying AIM’s motion to compel arbitration.
This Court should grant this petition and issue a writ of certiorari to correct the error of the Missouri courts. This case presents an opportunity for
this Court to clarify the contours of the FAA’s mandate, and make clear that where the parties’ agreement stipulates that they intend to arbitrate threshold issues of arbitrability, the trial court is divested
of jurisdiction to decide such issues. This Court
should grant this Petition to clarify that, pursuant to
the FAA, where the parties have agreed to do so, a
preliminary issue of collateral estoppel must be submitted to an arbitrator for determination.

8

CONCLUSION
For the foregoing reasons, the petition for a
writ of certiorari should be granted, and the judgment of the Missouri Court of Appeals should be reversed.
Respectfully submitted,
Thomas M. Lucas

Counsel of Record

JACKSON LEWIS P.C.
500 E. Main Street, Suite 800
Norfolk, Virginia 23510
(757) 648-1445
thomas.lucas@jacksonlewis.com

Counsel for Petitioners

APPENDIX

1a
A OF REVIEW
APPENDIX A Appendix
— DENIAL
OF THE SUPREME COURT OF MISSOURI,
DATED MARCH 2, 2021
SUPREME COURT OF MISSOURI
En Banc
SC98894
WD83594
January Session, 2021
STEVEN PINKERTON,
Respondent,
vs.
TECHNICAL EDUCATION SERVICES, INC.,
Appellant.
Now at this day, on consideration of the Appellants’
application to transfer the above-entitled cause from the
Missouri Court of Appeals, Western District, it is ordered
that the said application be, and the same is hereby denied.
STATE OF MISSOURI-Sct.
I, Betsy AuBuchon, Clerk of the Supreme Court of the
State of Missouri, certify that the foregoing is a full, true
and complete transcript of the judgment of said Supreme
Court, entered of record at the January Session, 2021, and
on the 2nd day of March, 2021, in the above-entitled cause.

2a
Appendix A
IN TESTIMONY WHEREOF, I have hereunto set my
hand and the seal of said Court, at my office in the City
of Jefferson, this 2nd day of March, 2021.
/s/			

, Clerk

/s/			

, Deputy Clerk

3a
Appendix OF
B THE MISSOURI
APPENDIX B — OPINION
COURT OF APPEALS, WESTERN DISTRICT,
DIVISION FOUR, FILED NOVEMBER 24, 2020
IN THE MISSOURI COURT OF APPEALS
WESTERN DISTRICT
DIVISION FOUR
DOCKET NUMBER WD83594
STEVEN PINKERTON,
Respondent,
v.
TECHNICAL EDUCATION SERVICES, INC.,
Appellant.
November 24, 2020, Decided
November 24, 2020, Opinion Filed
Appeal from the Circuit Court of Jackson County,
Missouri. The Honorable Patrick W. Campbell, Judge.
Before Division Four: Cynthia L. Martin, Chief Judge,
Presiding, Karen King Mitchell,
Judge and Anthony Rex Gabbert, Judge
Technical Education Services Inc., an affiliate of
Aviation Institute of Maintenance, et al., (“AIM”), appeals
the trial court’s order denying AIM’s motion to dismiss,

4a
Appendix B
or in the alternative, to compel arbitration.1 AIM asserts
three points on appeal challenging the trial court’s
determination that AIM is collaterally estopped from
seeking to compel arbitration. We affirm the trial court’s
order.
Factual and Procedural Background
AIM, a Virginia-based corporation, operates aviation
maintenance trade schools throughout the United States,
one of which is located in Kansas City, Missouri. In
2009, Steven Pinkerton (“Pinkerton”) enrolled at AIM’s
Kansas City, Missouri trade school. In doing so, he signed
an enrollment agreement which included an arbitration
provision that provided as follows:
Arbitration Agreement: I agree that any
controversy, claim or dispute of any sort
arising out of or relating to matters including,
but not l i m it ed t o: student a d m ission,
enrollment, financial obligations and status
as a student, which cannot be first resolved by
way of applicable internal dispute resolution
practices and procedures, shall be submitted
for arbitration, to be administered by the
American Arbitration Association located
within Virginia Beach, Virginia, in accordance
with its commercial arbitration rules. All fees
and expenses of arbitration shall be shared
1. An order denying a motion to compel arbitration is appealable
under section 435.440.

5a
Appendix B
equally and any award rendered in favor of
a student will be limited to the total amount
paid to the School by the student. Any award
or determination rendered by the arbitrator(s)
shall be final and entered as a judgment by a
court of competent jurisdiction.
Six months later, Pinkerton signed a new enrollment
agreement when he switched to a different program within
AIM’s school. The new enrollment agreement contained
the same arbitration provision.
In 2014, Pinkerton filed a lawsuit in the Circuit
Court of Jackson County, Missouri, against AIM; Adrian
Rothrock, an admissions representative; and W. Gerald
Yagen, the school’s owner, alleging the school engaged in
deception, misrepresentation, and fraud. AIM moved to
dismiss the suit, or in the alternative, to compel arbitration
and stay the proceedings. AIM contended that the
arbitration provision required delegation to an arbitrator
of all threshold arbitrability disputes, including whether
the arbitration clause is enforceable. The trial court
granted AIM’s motion to compel arbitration, concluding
that the arbitration provision required delegation of
threshold arbitrability disputes to an arbitrator, including
Pinkerton’s contention that the arbitration provision was
unenforceable because it was unconscionable.
Pinkerton sought a writ of prohibition from the
Missouri Supreme Court to require the trial court to
overrule the motion to compel arbitration because he had
raised issues involving the validity and enforceability of

6a
Appendix B
the arbitration provision that could not be delegated to
an arbitrator for determination. State ex rel. Pinkerton
v. Fahnestock, 531 S.W.3d 36, 39-40 (Mo. banc 2017). The
Supreme Court found that “[t]he arbitration agreement
clearly and unmistakably evidence[d] the parties’ intent to
delegate threshold issues of arbitrability to the arbitrator,”
and that the trial court properly sustained AIM’s motion
to compel arbitration. Id. at 53. The Supreme Court thus
ordered the parties to proceed to arbitration. Id.
Pinkerton’s lawsuit proceeded to arbitration.
Pinkerton and AIM jointly selected the Honorable Gary
Oxenhandler to serve as the arbitrator. On November 15,
2018, Judge Oxenhandler issued an arbitrator’s decision
denoted as a “judgment” which ruled that:
Arbitration is supposed to be a fair process,
a process that affords all parties the process
they are due. Such is not the case here. For
the reasons stated above, the Arbitrator finds
the Arbitration Agreement unconscionable
and unenforceable. This case is remanded to
the Courts for appropriate action. Arbitration
dismissed.
Pinkerton filed the arbitrator’s decision with the trial court
as an attachment to a motion to lift the stay of proceedings
imposed when arbitration had been compelled. AIM did
not oppose lifting the stay, and did not challenge the
arbitration decision. The trial court granted Pinkerton’s
motion, lifted its stay, and the parties resumed litigation
of Pinkerton’s lawsuit in the trial court.

7a
Appendix B
On July 23, 2019, Pinkerton voluntarily dismissed
his lawsuit without prejudice pursuant to Rule 67.02. 2
Three days later, Pinkerton re-filed his lawsuit, naming
the same parties and asserting the same causes of action
as had been asserted in his original lawsuit filed in 2014.
AIM once again moved to dismiss, or alternatively, to
compel arbitration and stay the proceedings. AIM argued
that the arbitration provision in the enrollment agreement
was enforceable and that any challenges to enforceability
of the provision had been delegated to the arbitrator
for determination. Pinkerton argued that AIM was
collaterally estopped from seeking to compel arbitration
because an arbitrator had already found the arbitration
provision to be unconscionable and unenforceable. AIM
argued it was not collaterally estopped from seeking to
compel arbitration because the arbitrator’s decision was
not a final judgment, and because Pinkerton’s voluntary
dismissal of the 2014 lawsuit “wipe[d] the slate clean,”
negating any preclusive effect of the arbitrator’s decision.
The trial court denied AIM’s motion to compel
arbitration. The trial judge found that for purposes of
collateral estoppel, the pertinent issue was whether the
arbitration provision was enforceable, and that “[t]he prior
action resulted in a final, valid judgment on that issue”
when the arbitrator issued his decision. The trial court
2. All Rule references are to Missouri Court Rules, Volume
I -- State 2019 unless otherwise noted. Rule 67.02 permits the
plaintiff in a lawsuit to voluntarily dismiss his or her lawsuit
without prejudice, without order of the court, prior to the swearing
of a jury in a jury tried matter, or before the introduction of
evidence at trial in a court tried matter.

8a
Appendix B
also found that Pinkerton had established the remaining
elements of collateral estoppel. Thus, the trial court
concluded that AIM was collaterally estopped from seeking
to compel arbitration because the arbitration provision
had been determined to be unenforceable. The trial court
also concluded that Pinkerton’s voluntary dismissal of the
2014 lawsuit did not negate the preclusive effect of the
“valid final judgment regarding the enforceability of the
arbitration provision.”
AIM appeals.
Standard of Review
“We review the circuit court’s denial of a motion to
compel arbitration de novo.” Fogelsong v. Joe Machens
Auto. Group Inc., 600 S.W.3d 288, 293 (Mo. App. W.D.
2020) (citing Soars v. Easter Seals Midwest, 563 S.W.3d
111, 113 (Mo. banc 2018). “Upon such review, we must first
determine whether a valid arbitration agreement exists.”
Sniezek v. Kansas City Chiefs Football Club, 402 S.W.3d
580, 583 (Mo. App. W.D. 2013) (citing Nitro Distributing,
Inc. v. Dunn, 194 S.W.3d 339, 345 (Mo. banc 2006). If the
trial court’s ruling on the motion to compel arbitration
includes “factual findings that bear on the existence,
scope, or revocability of the arbitration agreement, then
we will affirm the factual findings if they are supported by
substantial evidence and are not against the weight of the
evidence.” Id. (citing Whitworth v. McBride & Son Homes,
Inc., 344 S.W.3d 730, 736 (Mo. App. W.D. 2011). The party
asserting the existence of a valid and enforceable contract
to arbitrate bears the burden of proving that proposition.
Id.

9a
Appendix B
Analysis
AIM raises three points on appeal challenging the
trial court’s conclusion that AIM was collaterally estopped
from seeking to compel arbitration. In its first point, AIM
argues that the trial court committed legal error because
collateral estoppel is an issue of arbitrability which had
been delegated to the arbitrator for determination. AIM’s
second point asserts that even if the trial court properly
determined the issue of collateral estoppel instead of
referring that matter to arbitration, the trial court erred
because the arbitrator’s decision was not a final judgment
on the merits. In its third point, AIM claims that the
trial court erred in concluding that Pinkerton’s voluntary
dismissal of the 2014 lawsuit did not negate the preclusive
effect, if any, of the arbitrator’s decision. We address the
points in turn.
Point One: Because the arbitrator’s decision
controls whether an arbitration agreement exists
between Pinkerton and AIM, the trial court properly
determined the collateral estoppel effect of the
arbitrator’s decision
It is uncontested that the arbitration provision AIM
now seeks to enforce was determined by an arbitrator
to be unenforceable in connection with Pinkerton’s
2014 lawsuit. In other words, an arbitrator previously
determined that no valid arbitration agreement exists
between the parties because the arbitration provision was
unconscionable. “Arbitration is a matter of contract under
the Federal Arbitration Act (FAA).” Soars v. Easter Seals
Midwest, 563 S.W.3d 111, 114 (Mo. banc 2018) (citing AT&T

10a
Appendix B
Mobility, LLC v. Concepcion, 563 U.S. 333, 339, 131 S.
Ct. 1740, 179 L. Ed. 2d 742 (2011). “’[A] party cannot be
required to arbitrate a dispute that it has not agreed to
arbitrate[,]’ and arbitration will only be compelled where
‘a valid arbitration agreement exists . . . .’” Hughes v.
Ancestry.com, 580 S.W.3d 42, 47 (Mo. App. W.D. 2019)
(quoting NutraPet Sys., LLC v. Proviera Biotech, LLC,
542 S.W.3d 410, 413-14 (Mo. App. W.D. 2017).
As such, the ultimate issue we must resolve is the
preclusive effect of the arbitrator’s decision that no valid
arbitration agreement exists between Pinkerton and
AIM. However, the initial issue we must resolve is who, as
between an arbitrator and the trial court, was required to
determine the preclusive effect of the arbitrator’s decision.
AIM views the preclusive effect of the arbitrator’s decision
as an issue of enforceability of an arbitration agreement
that must be determined by an arbitrator based on
the arbitration agreement’s delegation language. See
Pinkerton, 531 S.W.3d at 53. Pinkerton contends that the
trial court was required to determine the preclusive effect
of the arbitrator’s decision because a trial court must first
determine that an agreement to arbitrate exists before
it can delegate matters regarding enforceability of the
agreement to an arbitrator for determination. See Theroff
v. Dollar Tree Stores, Inc., 591 S.W.3d 432, 440 (Mo. banc
2020) (“[T]he circuit court cannot delegate [a] matter
to an arbitrator whose very existence depends upon
an agreement.”). We conclude that Theroff controls the
resolution of this dispute, and that because the preclusive
effect of the arbitrator’s decision will control whether an
arbitration agreement exists, the trial court properly

11a
Appendix B
determined whether AIM was collaterally estopped by
the arbitrator’s decision.
In Theroff, the Supreme Court held that in the
absence of an agreement to arbitrate, a delegation
provision is not effective. Id. at 439-40. The Court was
reviewing a trial court’s refusal to compel arbitration
where the party opposing arbitration, who was blind,
denied affixing her digital signature to documents at
the time she was hired, and alleged that the employer’s
representative did so without her assent, as the nature
of the documents were not explained to her. Id. at 435.
Though it was uncontested that the documents included
an arbitration provision, whether the employee assented
to the arbitration provision by affixing her digital
signature was contested. Id. at 437. The Court framed the
issue before it as one of first impression, and noted that
“[u]nlike the standard scenario in which there is no dispute
about whether a party signed an arbitration agreement,
when a party disputes signing, the court must first decide
the existence of an agreement to arbitrate.” Id. (citing
Chastain v. Robinson-Humphrey Co., 957 F.2d 851, 854
(11th Cir. 1992) (noting that the trial court must determine
in first instance whether an agreement to arbitrate exists
where signature is contested) (abrogated on other grounds
by Larsen v. Citibank FSB, 871 F.3d 1295, 1303 n.1 (11th
Cir. 2017)). Noting that Theroff challenged the existence of
any agreement to arbitrate, the Supreme Court concluded
that because the “existence of the agreement to arbitrate
is a prerequisite to compelling arbitration,” the trial court
properly determined this issue. Id. at 439.

12a
Appendix B
The decision in Theroff was not unanimous. In one
dissenting opinion, a minority of the court held that a
controversy over signature is a contract formation issue
that must be referred to the arbitrator in the presence of
an unchallenged delegation provision in the arbitration
agreement. Id. at 442-46 (Powell, J., dissenting). In a
separate dissent, a minority of the court wrote separately
to emphasize that assent to a contract, whether challenged
based on signature or otherwise, is always a contract
formation issue, and that the delegation provision in
Theroff’s arbitration agreement expressly delegated to
an arbitrator disputes involving contract formation. Id. at
446-48 (Fischer, J., dissenting). We believe, however, that
the circumstances in this case are even more compelling
than those in Theroff. Here, an arbitrator determined
that the arbitration provision included in the enrollment
agreement Pinkerton signed was not enforceable, and
thus that no valid agreement to arbitrate existed. If
the arbitrator’s decision binds AIM, then there exists
no valid arbitration agreement to enforce, including the
agreement’s delegation provision. Consistent with Theroff,
where the very existence of an arbitration agreement
is challenged, it is for the trial court to make that
determination and not an arbitrator. In fact, this result
is compelled by section 435.355.1 which provides that:
On application of a party showing an agreement
described in section 435.350, and the opposing
party’s refusal to arbitrate, the court shall
order the parties to proceed with arbitration,
but if the opposing party denies the existence
of the agreement to arbitrate, the court shall

13a
Appendix B
proceed summarily to the determination of
the issue so raised . . . .
(Emphasis added.)
A IM disregards Theroff, and insists that the
preclusive effect of the arbitrator’s decision had to be
determined by the arbitrator. AIM relies on Melnuk
v. Hillman, a recent opinion which held, as a matter of
first impression, that an arbitrator, rather than the trial
court, was required to decide the collateral estoppel effect
of a previous arbitration award on a second arbitration
demand. 593 S.W.3d 674, 681 (Mo. App. E.D. 2020). But
AIM’s reliance on Melnuk is misplaced. Melnuk did not
hold that the collateral estoppel effect of a prior arbitration
decision must always be determined by an arbitrator in
the face of a second arbitration demand. More importantly,
Melnuk did not involve a scenario where the collateral
estoppel effect of an earlier arbitration decision was
central to determining whether an arbitration agreement
even exists.
In Melnuk, the owners of a limited liability company
entered into a buy-sell agreement where Hillman agreed
to purchase Melnuk’s 50% interest. Id. at 676. The buy-sell
agreement and the operating agreement for the limited
liability company each contained an arbitration provision.
Id. at 677. The buy-sell agreement contemplated that
Hillman would give Melnuk a promissory note for a portion
of the purchase price, and that the note balance could be
adjusted by subsequent contingent liabilities. Id. at 676.
One such liability involved amounts paid to key employees

14a
Appendix B
pursuant to a phantom option plan in the event of any
change of control of ownership. Id. The “change of control”
provision in the phantom option plan was modified after
the buy-sell agreement was entered into from “greater
than fifty percent” to “fifty percent or more.” Id. at 67677. As a result, nearly $300,000 was paid out by Hillman
to key employees, and Hillman notified Melnuk that the
balance Hillman owed on the promissory note was being
correspondingly reduced. Id. at 677. Melnuk disagreed
with the adjustment, and claimed he had not signed the
amendment to the phantom option plan modifying the
definition of “change of control.” Id.
Hillman initiated an arbitration proceeding seeking
a declaratory judgment that the “change of control”
contingent liability adjustments were valid under the
buy sell agreement. Id. at 677-78. Melnuk denied the
validity of the change of control adjustments, and also
asserted counterclaims seeking upward adjustments of
the promissory note balance for reasons unrelated to the
change of control payments. Id. at 678. The arbitrator
entered an arbitration award which stated that the
issues presented in the arbitration were “ten potential
adjustments” of the principal amount owed by Hillman
to Melnuk on the promissory note. Id. The arbitrator
concluded that the moneys paid to key employees “met the
contractual definition of a contingent liability adjustment”
in the promissory note, resulting in a reduction of the
amount due on the note. Id. However, the arbitrator
expressly noted in the award that no opinion was being
expressed as to whether Melnuk might have a claim for
breach of fiduciary duty or some other cause of action

15a
Appendix B
relating to improper modification of the “change of control
provision,” and noted that such claims were “beyond the
scope of this arbitration.” Id.
The arbitrator’s award was confirmed in early 2018.
Id. Almost a year later, Melnuk filed a lawsuit seeking
damages from Hillman on theories of breach of fiduciary
duty, fraud, and conspiracy arising out of the alleged
unauthorized amendment of the “change of control”
provision in the phantom option plan. Id. Hillman moved
to compel arbitration. Id. Melnuk argued the earlier
arbitration award determined that his claims were
beyond the scope of the arbitration clauses in the parties’
operating and buy/sell agreements. Id. at 678-79. Neither
party contested the existence of an arbitration agreement.
The only issue was whether the scope of the arbitration
agreement had been resolved by the earlier arbitrator’s
decision.
The trial court denied Hillman’s motion to compel
arbitration. Id. at 679. On appeal, the Eastern District
characterized the dispute between the parties as whether
Hillman was collaterally estopped by the arbitration
award to compel a second arbitration. Id. Specifically, the
parties disputed whether the arbitrability of Melnuk’s
damage claims had been decided by the first arbitration
award, and whether an arbitrator or the court should
determine this issue. Id. at 680.
The Eastern District noted that determining whether
an arbitrator or a court should “determine[] the collateral
estoppel effect of a prior arbitration award . . . is an issue

16a
Appendix B
of first impression.” Id. After analyzing federal decisions
relevant to the issue, the court concluded that “[a]n
arbitrator must decide whether Hillman is collaterally
estopped by the [earlier arbitration award] from
compelling arbitration of Melnuk’s claims for damages not
because the parties agreed to submit threshold questions
of arbitrability to an arbitrator but because evaluating
Melnuk’s collateral estoppel defense is a ‘procedural
question[] which grow[s] out of the dispute and bear[s] on
its final disposition.’” Id. at 682 (quoting Howsam v. Dean
Witter Reynolds, Inc., 537 U.S. 79, 84-85, 123 S. Ct. 588,
154 L. Ed. 2d 491 (2002)) (emphasis added).
Melnuk thus cannot be read as urged by AIM for
the proposition that an affirmative defense raising
the collateral estoppel effect of an earlier arbitration
award must always be referred for determination by an
arbitrator pursuant to a delegation provision. In fact,
Melnuk expressly dispels this conclusion. At best, Melnuk
simply holds that “the merits of an argument challenging
the scope of the issues resolved in a prior arbitration
award ‘must be presented to and resolved by [a] . . . second
arbitration proceeding.’” Id. at 681 (quoting W & T Travel
Servs., LLC v. Priority One Servs., Inc., 69 F. Supp. 3d
158, 171 (D.D.C. 2014)).
Here, there is no dispute regarding the scope of
the issues resolved by the prior arbitration award. The
parties agree that the prior arbitration award determined
the enforceability of the arbitration provision in the
enrollment agreement by concluding the provision was
unenforceable because it was unconscionable. The exact

17a
Appendix B
same issue is now framed by Pinkerton’s opposition to
AIM’s motion to compel arbitration in Pinkerton’s re-filed
case. 3 Melnuk is therefore of no assistance to AIM as it
did not address whether an arbitration agreement exists.
Instead, because the trial court first had to determine that
an arbitration agreement existed before it could compel
arbitration in Pinkerton’s refiled case, the trial court did
not err in determining the collateral estoppel effect of the
arbitrator’s decision on that very issue.
AIM’s first point on appeal is denied.
Point Two: The arbitrator’s decision was a judgment
on the merits
AIM next argues that even if the trial court properly
determined the preclusive effect of the prior arbitration
decision instead of referring that issue to an arbitrator,
the trial court erroneously found the arbitrator’s decision
collaterally estopped AIM because the arbitrator’s
decision was not a judgment on the merits.
“‘Collateral estoppel, or issue preclusion, is used to
preclude the relitigation of an issue that already has
been decided in a different cause of action.’” Matter of
Invenergy Transmission LLC, 604 S.W.3d 634, 639 (Mo.
App. W.D. 2020) (quoting Brown v. Carnahan, 370 S.W.3d
637, 658 (Mo. banc 2012). Four elements must be shown in
order to give a prior adjudication preclusive effect:
3. In its second point on appeal, AIM concedes that the issue
is the enforceability of the arbitration agreement.

18a
Appendix B
(1) the issue decided in the prior action was
identical to the issue presented in the later
action; (2) the prior action resulted in a
judgment on the merits;4 (3) the party against
whom estoppel is asserted was a party or was
in privity with a party to the prior action; and
(4) the party against whom collateral estoppel
is asserted had a full and fair opportunity to
litigate the issue in the prior action.
U-Haul Company of Missouri v. Carter, 567 S.W.3d 680,
684 (Mo. App. W.D. 2019) (citing James v. Paul, 49 S.W.3d
678, 682 (Mo. banc 2001). AIM concedes that only the
second element, whether the prior adjudication resulted
in a judgment on the merits, is at issue in this case. 5

4. Some Missouri cases add the word “final” before the word
judgment in describing this element. See, e.g., Fischer ex rel.
Scarborough v. Fischer, 34 S.W.3d 263, 265 (Mo. App. W.D. 2000).
As we explain, however, inclusion of the word “final” is immaterial.
What matters is whether a determination that is binding on the
parties has been made on an issue--not whether the determination
is “final” as in final for purposes of appeal.
5. We agree that the trial court correctly concluded that
the remaining three elements for collateral estoppel have been
established. The issue decided in the arbitration proceeding was
enforceability of the arbitration agreement, and this is the identical
issue presented to us. Further, the parties are identical, and AIM
had a full and fair opportunity to litigate the issue in arbitration.
Therefore, we analyze whether the prior arbitration resulted in
a judgment on the merits.

19a
Appendix B
“‘For the purposes of collateral estoppel, an arbitration
award may constitute a final judgment on the merits.’”
Melnuk, 593 S.W.3d at 680 (quoting Graybar Elec. Co., Inc.
v. Federal Ins. Co., 567 F. Supp. 2d 1116, 1123 (E.D. Mo.
2008). AIM acknowledges this point, but asserts that the
arbitrator’s decision was not a “merits” decision, and thus
cannot constitute a judgment on the merits for purposes
of collateral estoppel. AIM relies on State v. Purvis
to contend that the arbitrator merely decided where
Pinkerton’s dispute should be litigated, and was thus not
a judgment on the merits because it was a “judgment
rendered upon some preliminary or merely technical
point, or by default, and without trial.” 739 S.W.2d 589,
591 (Mo. App. S.D. 1987).
Purvis is readily distinguishable. In Purvis, the
Southern District concluded that the State was not
collaterally estopped to prove probable cause in a driving
while intoxicated case even though an administrative
hearing officer determined in a related license suspension
proceeding that there was “no evidence in [the] file on
probable cause.” Id. at 590-91. The Southern District
concluded that the administrative hearing officer’s
decision was ambiguous, as it could not be determined
whether the hearing officer weighed evidence to find,
on the merits, that probable cause was not established,
or instead concluded that probable cause was not
demonstrated because a statutory requirement relevant
only to administrative suspension proceedings had not
been satisfied. Id. Because it was impossible to say that in
making a probable cause finding, the hearing officer relied
on anything “other than the preliminary and technical

20a
Appendix B
basis of deficiencies in the arresting officer’s report,” the
court declined to treat the hearing officer’s decision as a
judgment on the merits. Id. at 591.
In stark contrast, the arbitrator’s decision entered
in connection with Pinkerton’s 2014 lawsuit was plainly a
determination on the merits regarding the enforceability
of the parties’ arbitration agreement. The arbitrator
dismissed the arbitration proceeding after finding there
was no valid arbitration agreement to enforce because
the agreement was unconscionable. This was not a
preliminary or technical determination, but a substantive
determination on an ultimate issue that AIM insisted be
heard by an arbitrator. Purvis is of no assistance to AIM.6
AIM next argues that even if the arbitrator’s decision
was on the merits, it was not a judgment. AIM relies on
State ex rel. Henderson v. Asel, where our Supreme Court
addressed what constitutes a judgment, and held that “a
judgment is a legally enforceable judicial order that fully
resolves at least one claim in a lawsuit and establishes all
the rights and liabilities of the parties with respect to that
claim.” 566 S.W.3d 596, 598 (Mo. banc 2019). AIM argues
6. AIM also relies on Med. Shoppe Int’l, Inc. v. J-Pral Corp.,
662 S.W.2d 263, 275 (Mo. App. E.D. 1983), as additional support for
the proposition attributed to Purvis. AIM’s reliance is misplaced.
Medicine Shoppe Int’l simply concluded that J-Pral Corporation
was not collaterally estopped from raising the issue of personal
jurisdiction because, when the trial court dismissed Medicine
Shoppe’s petition for want of personal jurisdiction, “no decision
on the merits” on the issue of personal jurisdiction had yet been
entered by the arbitration tribunal. Id.

21a
Appendix B
that the arbitrator’s decision was not a judicial order, and
therefore cannot be a “judgment” on the merits. AIM’s
argument disregards authority for the proposition that
an arbitration award may constitute a judgment on the
merits for purposes of collateral estoppel. See Melnuk,
593 S.W.3d at 680. Moreover, while Henderson refers to
a judgment as a “judicial order,” it did so in the context
of addressing when a judgment is appealable. 566 S.W.3d
at 598-99. Henderson did not address what constitutes a
judgment for purposes of collateral estoppel, and cannot
be read to limit “judgments” for that purpose to judicial
orders.7
Finally, AIM argues that other courts have ruled
that “a decision on a motion to compel arbitration is not a
final judgment on the merits that gives rise to collateral
estoppel.” Pearson v. P.F. Chang’s Bistro, Inc., No.
13-cv-2009-JLS, 2015 U.S. Dist. LEXIS 184157, 2015
WL 12910914, at *4 n.4 (S.D. Cal. Feb. 23, 2015); Lotsoff
v. Wells Fargo Bank, No. 18-cv-02033-AJB-JLB, 2019
U.S. Dist. LEXIS 169373, 2019 WL 4747667, at *4 (S.D.
Cal. Sept. 30, 2019). Neither case is binding on this court.
Fogelsong, 600 S.W.3d at 295 n.3 (“This Court is not bound
7. AIM also relies on our Supreme Court’s conclusion that an
order sustaining partial summary judgment on only some issues in
a case, including issues of arbitrability and consideration, “was not
a final judgment” for purposes of appeal. Sanford v. CenturyTel
of Mo., LLC, 490 S.W.3d 717, 719 (Mo. banc 2016). However, as
with Henderson, a discussion of when judgments are appealable
cannot be fairly read to either contemplate, or be controlling on,
the issue of what constitutes a judgment on the merits for purposes
of collateral estoppel.

22a
Appendix B
by the decisions of federal district courts.”) (citing Godat
v. Mercantile Bank of Nw. Cty., 884 S.W.2d 1, 4 n.1 (Mo.
App. E.D. 1994)). In any event, both decisions are readily
distinguishable. Though Pearson noted in a footnote that a
state court’s order denying a defendant’s motion to compel
arbitration was not a “final judgment on the merits”
supporting collateral estoppel in the same plaintiff’s later
filed federal court action, there is no basis from this vague
reference to determine the basis for the state court’s
order, and more importantly, whether the order found
there to be no valid arbitration agreement in existence.
2015 U.S. Dist. LEXIS 184157, 2015 WL 12910914, at *4
n.4. And though Lotsoff rejected a plaintiff’s argument
that the defendant was collaterally estopped to compel
arbitration where the same arbitration provision had been
declared unenforceable, it is plain that the “enforceability”
determination was not only made in another case involving
different parties, but as well that the determination was
not yet final and was being appealed. 2019 U.S. Dist.
LEXIS 169373, 2019 WL 4747667, at *4.
We conclude that the arbitrator’s decision finding
the arbitration provision in the enrollment agreement
to be unenforceable was a judgment on the merits. This
conclusion is supported by Cooper v. Yellow Freight
System, Inc., 589 S.W.2d 643, 645 (Mo. App. E.D. 1979), and
by Pratt v. Purcell Tire & Rubber Co., 846 S.W.2d 230, 233
(Mo. App. E.D. 1993), both of which expressly addressed
the preclusive effect of a previous arbitrator’s decision,
and both of which concluded that “where there has been
a final and binding arbitration between the parties,” the
facts determined in the arbitration proceeding may not

23a
Appendix B
be relitigated. Pratt, 846 S.W.2d at 233 (citing Cooper,
589 S.W.2d at 645).
In Cooper, a trucking company terminated a driver
for reckless driving resulting in an accident, and an
arbitration proceeding sustained the termination on the
same grounds. 589 S.W.2d at 644. The driver then filed
suit, alleging, inter alia, that the reason provided for his
termination was false because he did not drive recklessly
resulting in an accident. Id. The Eastern District affirmed
the trial court’s grant of summary judgment for the
defendant because the issue of whether or not the driver
drove recklessly, was “the identical issue litigated by
the two parties” in arbitration, and collateral estopped
therefore barred the driver from relitigating the issue.
Id. at 645 (“[i]f the procedure used to settle the dispute
is one of the party’s own choosing, as it was here, and
was a final and binding arbitration between the parties,
the courts may not relitigate facts determined in the
arbitration proceeding.”)
Similarly, in Pratt, a mechanic alleged, in both an
arbitration proceeding and in a suit for damages, that his
former employer denied his reinstatement in retaliation
after he filed a workers’ compensation claim. 846 S.W.2d
at 230. The issue presented to the arbitrator was whether
the employer had unjustly refused to allow the mechanic
to return to work. Id. at 232. The arbitrator found that the
employer had not acted in a discriminatory manner. Id.
The Eastern District affirmed the trial court’s subsequent
grant of summary judgment in the employer’s favor on the
grounds that collateral estoppel precluded relitigating the

24a
Appendix B
reason for the employer’s refusal to reinstate the mechanic
because the same issue had already been litigated by the
parties in a final and binding arbitration proceeding. Id.
at 233 (citing Cooper, 589 S.W.2d at 645).
Cooper and Pratt thus hold that when a specific issue
has been litigated in an arbitration proceeding, and where
the arbitrator’s decision expressly resolves that issue, the
parties are collaterally estopped from relitigating the
same issue in a subsequent proceeding. Not surprisingly,
the Eastern District in Melnuk acknowledged this
precedent, and differentiated the circumstances in
Melnuk (where the scope of what was determined in a
prior arbitration was contested) from the circumstances
in Cooper and Pratt, thus reinforcing that “a party is
barred from asserting a claim identically presented and
determined in a prior arbitration proceeding.” 593 S.W.3d
at 682 (citing Cooper, 589 S.W.2d at 645; Pratt, 846 S.W.2d
at 233).
Here, AIM moved to compel arbitration in Pinkerton’s
2014 lawsuit. In response, Pinkerton generally challenged
the validity of the arbitration agreement and specifically
challenged the validity of the delegation provision. Our
Supreme Court found the arbitration agreement to
“clearly and unmistakably evidence the parties’ intent to
delegate threshold issues of arbitrability to the arbitrator.”
Pinkerton, 531 S.W.3d at 53. The Court thus ordered the
parties to proceed to arbitration, after concluding that
the delegation provision was valid and enforceable under
the FAA “’leaving any challenge to the validity of the
[a]greement as a whole,’ or to the other provisions within

25a
Appendix B
the arbitration agreement, ‘for the arbitrator.’” Id. at 52-53
(quoting Rent-A-Center, West, Inc. v. Jackson, 561 U.S. 63,
72, 130 S. Ct. 2772, 177 L. Ed. 2d 403 (2010)). The parties
thereafter agreed upon an arbitrator, and that arbitrator
subsequently issued a written decision, denominated a
judgment, which finally concluded that the arbitration
agreement was unconscionable and unenforceable,
requiring dismissal of the arbitration proceeding. AIM did
not challenge the arbitrator’s determination, and did not
oppose Pinkerton’s filing of the arbitrator’s decision with
the trial court in connection with a request to lift the stay
of proceedings. The arbitrator’s decision finally resolved
the issue of enforceability of the arbitration agreement,
and constitutes a judgment on the merits with respect to
that issue. The trial court properly concluded that AIM is
collaterally estopped to relitigate that issue in Pinkerton’s
re-filed lawsuit.
Point two on appeal is denied.
Point Three: Pinkerton’s voluntary dismissal of his
2014 lawsuit without prejudice did not vacate the
arbitrator’s decision
Finally, AIM contends that even if the trial court
properly concluded that the arbitrator’s decision was
a judgment on the merits, when Pinkerton voluntarily
dismissed the 2014 lawsuit, his action “wiped the slate
clean” as if Pinkerton never brought the 2014 lawsuit, and
thus vacated the arbitrator’s decision.

26a
Appendix B
AIM relies on Williams v. Southern Union Co.,
364 S.W.3d 228, 235 (Mo. App. W.D. 2011). In Williams,
the trial court partially sustained a defendant’s motion
to dismiss two of the plaintiff’s claims. Id. at 230. The
plaintiff subsequently dismissed the lawsuit without
prejudice pursuant to Rule 67.02, and then refiled the suit,
reasserting the previously dismissed claims. Id. at 230-31.
We found that the plaintiff was not collaterally estopped
to reassert the previously dismissed claims because her
voluntary dismissal of the initial lawsuit “wiped the slate
clean,” as if the suit had never been filed. Id. at 234-35.
Central to this holding, however, is the fact that pursuant
to Rule 74.01(b):
[A]ny order or other form of decision, however
designated, that adjudicates fewer than all
the claims or the rights and liabilities of fewer
than all the parties shall not terminate the
action as to any of the claims or parties, and
the order or other form or decision is subject
to revision at any time before the entry of
judgment adjudicating all the claims and rights
and liabilities of all the parties.
Thus, our reference to “wiping the slate clean” in
connection with the plaintiff’s voluntary dismissal of the
initial lawsuit without prejudice pursuant to Rule 67.02
simply acknowledged that interlocutory rulings by a
trial court have no preclusive effect in a refiled lawsuit
because they did not yet have a preclusive effect in the
initial lawsuit. 8
8. AIM similarly relies on Lewis v. Department of Social
Services, 61 S.W.3d 248, 256 n.4 (Mo. App. W.D. 2001). In Lewis, our

27a
Appendix B
In contrast, the arbitration compelled by AIM in
Pinkerton’s 2014 lawsuit was a distinct and independent
proceeding. It resulted in a final decision that resolved
all issues before the arbitrator by v ir tue of the
arbitrator’s conclusion that the arbitration agreement was
unenforceable. The arbitrator’s decision was final, and was
not subject to revision by the trial court. See Cornerstone
Propane, L.P. v. Precision Investments, L.L.C., 126 S.W.3d
419, 423-24 (Mo. App. S.D. 2004) (quoting R.L. Hulett &
Co. v. Barth, 884 S.W.2d 309, 311 (Mo. App. E.D. 1994)
(“[a]n arbitration award . . . finally concludes and binds the
parties on the merits of all matters properly within the
scope of the award, both as to law and facts, and the courts
will have no inquiry as to whether the determination
thereon was right or wrong, for the purposes of interfering
with the award.”). Moreover, AIM did not challenge the
court evaluated potential error in the modification of a child support
award, rather than collateral estoppel; however, in a footnote, our
court explained that:

[a]lthough the order of the probate judge is contained
in the record and reference is made to the order, this
court notes that the findings contained therein are
not binding on . . . this court. The collateral estoppel
doctrine prohibits relitigation of an issue only if, inter
alia, there has been a final judgment on the merits.
Fischer ex rel. Scarborough v. Fischer, 34 S.W.3d
263, 264 (Mo. App. 2000). Since Mr. Lewis voluntarily
dismissed his motion for modification of visitation and
child support prior to final adjudication, the order of
the probate judge does not constitute a final judgment
on the merits.
Id. As with Williams, the court’s comments merely recognize that
interlocutory rulings by a trial court do not have preclusive effect
because they remain subject to change.

28a
Appendix B
arbitrator’s decision. Pinkerton’s motion to lift the stay
of proceedings attached the arbitrator’s decision. Though
Pinkerton’s motion was not expressly titled as a motion
to confirm the arbitrator’s decision, the motion’s success
depended on recognition of the arbitration award as final
and binding, as the trial court could not otherwise have
lifted the stay and proceeded with Pinkerton’s lawsuit.
See Pinkerton, 531 S.W.3d at 53. (ordering the parties to
arbitrate Pinkerton’s lawsuit, including Pinkerton’s claims
regarding enforceability of the arbitration agreement).
AIM could have challenged the arbitrator’s decision by
moving to vacate or modify the decision as authorized by
9 U.S.C. section 9 pursuant to one of the limited grounds
described in 9 U.S.C. sections 10 and 11. AIM did not do
so, leaving the trial court with no authority but to abide by
the arbitrator’s decision. See, e.g., Lobel Fin. Inc. v. Bothel,
570 S.W.3d 87, 91 (Mo. App. W.D. 2018) (observing that a
trial court has no authority but to confirm an arbitration
award unless the award is vacated or modified or corrected
as provided by 9 U.S.C. sections 10 and 11); Cargill v.
Poeppelmeyer, 328 S.W.3d 774, 776 (Mo. App. S.D. 2010)
(holding that a “court must confirm [an arbitration] award
unless the opposing party moves to vacate or modify the
award,” and that “the party challenging an arbitration
award has the burden of demonstrating that the award
is not valid.”).
Pinkerton’s subsequent decision to voluntarily dismiss
his lawsuit without prejudice did not operate to vacate
the arbitrator’s decision fully and finally resolving the
arbitration proceeding. AIM’s argument to the contrary
suggests a party has the power to unilaterally vacate an

29a
Appendix B
arbitrator’s final decision by voluntarily dismissing related
litigation. There is no authority for that proposition, which
would frustrate the primary purpose of arbitration to
efficiently reach a final and binding decision. See Decker
v. Kamil, 100 S.W.3d 115, 117 (Mo. App. E.D. 2003).
The trial court did not err in concluding that
Pinkerton’s voluntary dismissal without prejudice
pursuant to Rule 67.02 did not “wipe the slate clean” of
the arbitrator’s final decision regarding the enforceability
of the arbitration agreement.
Point Three on appeal is denied.
Conclusion
The trial court’s order refusing to compel arbitration
is affirmed.
/s/ Cynthia L. Martin
Cynthia L. Martin, Judge
All concur

30a
Appendix COF THE CIRCUIT
APPENDIX C — OPINION
COURT OF JACKSON COUNTY, MISSOURI AT
KANSAS CITY, DATED FEBRUARY 11, 2020
IN THE CIRCUIT COURT OF JACKSON COUNTY,
MISSOURI AT KANSAS CITY
Case No. 1916-CV20843
Division 10
STEVEN PINKERTON,
Plaintiff,
v.
TECHNICAL EDUCATION SERVICES, INC.,
Defendant.
ORDER DENYING MOTION TO DISMISS
AND MOTION TO COMPEL ARBITRATION
On this 11th day of February, 2020, the Court considers
Defendants’ Motion to Dismiss, or in the Alternative, to
Compel Arbitration and to Stay this Proceeding, and
Suggestions in Support filed October 7, 2019; Plaintiffs
Brief in Opposition filed October 17, 2019; Defendants’
Reply Memorandum in Support filed October 22, 2019; and
Plaintiffs Sur-Reply in Opposition. After having reviewed
the pleadings, considered the evidence, and heard the
arguments of counsel, the Court finds as follows:
1. Defendants’ Motion and Suggestions in Support allege
that Plaintiff signed a Student Enrollment Agreement

31a
Appendix C
with the Aviation Maintenance Technical Engineer
Program with Technical Education Services Inc. d/b/a
Aviation Institute of Maintenance (“AIM”) on September
8, 2009. On March 24, 2009 Plaintiff renegotiated the
terms of his Student Enrollment Agreement and executed
a second Student Enrollment Agreement with AIM. Both
of these Student Enrollment Agreements contained an
arbitration agreement as follows:
Arbitration Agreement: I agree that any
controversy, claim or dispute of any sort
arising out of or relating to matters including,
but not l i m it ed t o: student a d m ission,
enrollment, financial obligations and status
as a student, which cannot be first resolved by
way of applicable internal dispute resolution
practices and procedures, shall be submitted
for arbitration, to be administered by the
American Arbitration Association located
within Virginia Beach, Virginia, in accordance
with its commercial arbitration rules. All fees
and expenses of arbitration shall be shared
equally and any award rendered in favor of
a student will be limited to the total amount
paid to the School by the student. Any award
of determination rendered by the arbitration(s)
shall be final and entered as a judgment by a
court of competent jurisdiction.
2. Subsequent to signing both Student Enrollment
Agreements, Plaintiff filed a lawsuit in 2014 in the
Circuit Court of Jackson County, Missouri, Case No.
1416-CV10007 “against the school, Mr. Rothrock, and

32a
Appendix C
the School’s owner, W. Gerald Yagen, alleging the school
had engaged in fraud, misrepresentation, and deception
related to the School’s graduation and job placement
rates, starting salaries, and the costs and benefits of
its educational programs.” State ex rel. Pinkerton v.
Fahnestock, 531 S.W.3d 36, 40 (Mo. 2017). The Defendants
moved to dismiss, or in the alternative, to compel
arbitration and stay the proceedings. Id. Upon review of
Defendants’ Motion to Dismiss, the Circuit Court held that
the delegation provision was enforceable, and the issue of
whether the arbitration agreement was unconscionable is
left to the arbitrator. Id. On appeal to the Supreme Court
of Missouri, the Court sustained the Circuit Court’s Order
compelling the Parties to arbitrate. Id. at 53.
3. After delivering an opinion on the matter, Hon. Gary
Oxenhandler, whom was agreed to by both parties,
provided a Judgment dated November 15, 2018, ruling
that the Arbitration Agreement was “unconscionable and
unenforceable”, and as such “[t]his ease is remanded to the
Courts for appropriate action.” Subsequent to Hon. Gary
Oxenhandler’s decision, on December 3, 2018, Plaintiff
filed Hon. Gary Oxenhandler’s decision as an exhibit to
his motion to lift the stay in Case No. 1416-CV10007. The
stay was lifted in that case, and the parties proceeded in
Circuit Court until July, 2019.
4. On July 23, 2019, the Plaintiff filed a Notice of Dismissal
in Steven Pinkerton v. Technical Education Services, Inc.
d/b/a Aviation Institute of Maintenance, et al., Case No.
1416-CV10007. On July 26, 2019, the Plaintiff filed the
present lawsuit against the same individuals and asserted
the same causes of action as his lawsuit filed in 2014.

33a
Appendix C
5. Defendants are asking the Court to enter an order
dismissing this matter, or in the alternative compelling
Plaintiff to arbitrate his claims in this case. In Case No.
1416-CV10007, the parties were ordered to arbitrate, and
the issue regarding the enforceability of the arbitration
clause was left to the arbitrator to decide. Per the
Judgment on November 15, 2018, the enforceability of
the arbitration clause was decided by the arbitrator.
“Arbitration is supposed to be a fair process, a process
that affords all parties the process they are due. Such is
not the case here ... the Arbitrator finds the Arbitration
Agreement unconscionable and unenforceable. This
case is remanded to the Courts for appropriate action.
Arbitration dismissed.” (emphasis added).
6. Defendants allege that the judgment entered by the
Arbitrator in Case No. 1416-CV10007 was not a judgment
on the merits, thus collateral estoppel does not apply
in this present case. “Collateral estoppel operates to
prevent a party or its privies from relitigating facts or
questions at issue between the same parties which have
been previously adjudicated upon the merits.” Pratt v.
Purcell Tire and Rubber Co. Inc., 846 S.W.2d 230, 232
(Mo. App. E.D. 1993).
“Collateral estoppel is appropriate when: (1)
the issue sought to be precluded is identical to
the issue previously decided; (2) the prior action
resulted in a final adjudication on the merits;
(3) the party sought to be estopped was either
a party or in privity with a party to the prior
action; and (4) the party sought to be estopped

34a
Appendix C
was given a full and fair opportunity to be heard
on the issue in the prior action.” Wellons, Inc.
v. T.E. Ibberson Co., 869 F.2d 1166, 1168 (8th
Cir. 1989).
“[W]hen an issue of ultimate fact has once been determined
by a valid judgment, that issue cannot again be litigated
between the same parties in future litigation.” Pratt, 846
S.W.2d at 233. Here, the issue is whether the arbitration
provision is enforceable, which was a previously decided
issue in Case No. 1416-CV10007. The prior action resulted
in a final, valid judgment on that issue on November 15,
2018; the parties are exactly the same in both cases; and
the party sought to be estopped was given a full and fair
opportunity to be heard on that issue in the prior action.
7. Defendants also allege that a voluntary dismissal wipes
the slate clean, and since Plaintiff voluntarily dismissed
his claims in the first suit, it is as if the first suit had never
been brought. Even though Case No. 1416-CV10007 was
voluntarily dismissed, there was a final judgment ruling
that the same arbitration provision as the present case
was unenforceable. Thus, the voluntary dismissal does not
“wipe the slate clean” on a valid final judgment regarding
the enforceability of the arbitration provision.
WHEREFORE, for the reasons stated above, the
Court DENIES Defendants’ Motion to Stay Proceedings
and Compel Arbitration.
IT IS SO ORDERED.

35a
Appendix C
February 11, 2020
Date
/s/ PATRICK WILLIAM CAMPBELL
HONORABLE PATRICK WILLIAM CAMPBELL

36a
Appendix OF
D THE SUPREME
APPENDIX D — OPINION
COURT OF MISSOURI, FILED OCTOBER 31, 2017
SUPREME COURT OF MISSOURI
En Banc
No. SC94822
STATE ex rel. STEVEN PINKERTON,
Relator,
v.
THE HONORABLE JOEL P. FAHNESTOCK,
Respondent.
October 31, 2017, Opinion Issued
ORIGINAL PROCEEDING IN PROHIBITION
Steven Pinkerton seeks a writ of mandamus or, in
the alternative, a writ of prohibition requiring the circuit
court to overrule the motion to compel arbitration filed
by Aviation Institute of Maintenance (the school). In the
alternative, Mr. Pinkerton seeks a writ of mandamus
requiring the circuit court to enforce discovery and allow
him to file additional opposition to the school’s motion to
compel arbitration. Mr. Pinkerton contends the circuit
court improperly sustained the school’s motion to compel
arbitration because: (1) the school’s incorporation of the
delegation provision into the arbitration agreement by
reference to the American Arbitration Association’s

37a
Appendix D
commercial rules was not clear and unmistakable evidence
the parties intended to arbitrate threshold questions
of arbitrability; (2) issues regarding the formation of
the arbitration agreement cannot be delegated to an
arbitrator; and (3) he specifically challenged the validity
and enforceability of the delegation provision.
This Court issued a preliminary writ and now holds
the incorporation of the American Arbitration Association
(AAA) rules into the arbitration agreement provided
clear and unmistakable evidence the parties intended to
delegate threshold issues of arbitrability to the arbitrator.
Mr. Pinkerton’s only specific challenge to the delegation
provision — that it would be unconscionable to delegate
a determination of unconscionability to a person with a
direct financial interest in the outcome — was without
merit, and he did not otherwise specifically challenge
the validity or enforceability of the delegation provision.
Accordingly, the circuit court properly sustained the
school’s motion to compel arbitration, stayed the case,
and ordered the parties to arbitrate threshold issues of
arbitrability. The preliminary writ is quashed.
Factual and Procedural Background
In 2009, Mr. Pinkerton e-mailed the school and
requested information about becoming an aircraft
technician.1 In response, Adrian Rothrock, an admissions
representative, scheduled an appointment at the school’s
1. The school is the Missouri affiliate of Technical Education
Services, Inc., a Virginia-based corporation operating aviation
maintenance schools throughout the United States.

38a
Appendix D
Kansas City campus. Soon thereafter, Mr. Pinkerton met
with Mr. Rothrock and received a tour of the school and a
packet of information. A few weeks later, Mr. Pinkerton
visited the school for a second time and submitted an
application for admission. Four days later, he returned
to the school to sign the two-page enrollment agreement
for the aviation maintenance technical engineer program.
The enrollment agreement listed information about the
program’s duration, graduation requirements, tuition and
fees, scheduling, and its policies regarding cancellation,
termination, withdrawal, and refunds. The enrollment
agreement also included an arbitration agreement. The
arbitration agreement was about three-fourths from the
top of the enrollment agreement’s first page. The heading
“Arbitration Agreement” was in bold face type, and the
terms of the arbitration agreement were in the same type
size as the remainder of the enrollment agreement. The
arbitration agreement provided:
I agree that any controversy, claim or dispute
of any sort arising out of or relating to matters
including, but not limited to: student admission,
enrollment, financial obligations and status as
a student, which cannot be first resolved by
way of applicable internal dispute resolution
practices and procedures, shall be submitted
for arbitration, to be administered by the
American Arbitration Association located
within Virginia Beach, Virginia, in accordance
with its commercial arbitration rules. All fees
and expenses of arbitration shall be shared

39a
Appendix D
equally and any award rendered in favor of
a student will be limited to the total amount
paid to the School by the student. Any award
or determination rendered by the arbitrator(s)
shall be final and entered as a judgment by a
court of competent jurisdiction.
Mr. Pinkerton did not receive a copy of the A A A
commercial rules. 2
Rule R-7 of the commercial rules defined the scope of
the arbitrator’s “jurisdiction.” It read, in relevant part:
The arbitrator shall have the power to rule
on his or her own jurisdiction, including any
objections with respect to the existence, scope,
or validity of the arbitration agreement or to
the arbitrability of any claim or counterclaim.
Mr. Pinkerton signed the enrollment agreement and
received a copy. An admissions representative and another
school official also signed the agreement.

2. At the time the parties signed the underlying agreement,
the “Commercial Arbitration Rules with Supplementary Procedures
for Consumer-Related Disputes” governed consumer arbitration
disputes. The “Supplementary Procedures for Consumer-Related
Disputes” provided that the “AAA’s most current rules will be used
when the arbitration is started.” In 2014, the AAA replaced the
“Supplementary Procedures for Consumer-Related Disputes” with
“Consumer Arbitration Rules.” The consumer rules contain the same
jurisdiction clause as the commercial rules.

40a
Appendix D
On September 28, 2009, Mr. Pinkerton began
attending classes. Almost six months later, he requested
to switch from the school’s 100-week aviation maintenance
technical engineer program to a shorter 80-week aviation
technician program. The enrollment agreement he signed
for the aviation technician program was dated March 24,
2010, and contained a change in the credit hours required
for graduation, the cost of books per semester, the total
length of the program, and the estimated total student
cost per quarter. Otherwise, the enrollment agreement
for the aviation technician program included the same
information as the enrollment agreement for the aviation
maintenance technical engineer program as well as the
same arbitration agreement. 3
In 2011, Mr. Pinkerton graduated from the school as
the valedictorian of the night program. Having fulfilled
the graduation requirements, he received a certificate
of aviation maintenance, which entitled him to take the
federal aviation administration examinations to become
an airline mechanic. He took both required examinations
and received his temporary airman certificate from the
federal aviation administration in 2012. Despite having
obtained his certification, Mr. Pinkerton alleges he cannot
find employment in the aviation field.
In 2014, Mr. Pinkerton filed a lawsuit against the school,
Mr. Rothrock, and the school’s owner, W. Gerald Yagen,
alleging the school engaged in fraud, misrepresentation,
3. Because the two enrollment agreements contained the same
arbitration agreement, they will be referred to as the singular
“enrollment agreement” throughout the remainder of the opinion.

41a
Appendix D
and deception related to the school’s graduation and job
placement rates, starting salaries, and the costs and
benefits of its educational programs. The lawsuit included
claims for violations of the Missouri Merchandising
Practices Act, fraudulent misrepresentation, negligent
misrepresentation, money had and received, and unjust
enrichment.
The school moved to dismiss, or in the alternative,
to compel arbitration and stay the proceedings, citing
the arbitration agreement in the enrollment agreement
requiring Mr. Pinkerton to arbitrate “any controversy,
claim or dispute.” The school further contended the
arbitration agreement delegated threshold arbitrability
disputes, such as whether an arbitration clause is
enforceable or its applicability to the dispute at issue, to
the arbitrator by incorporating by reference the AAA’s
jurisdictional rule into the arbitration agreement. The
school requested the circuit court enforce this delegation
provision if Mr. Pinkerton challenged the arbitration
agreement. The school also filed a motion to stay discovery
and all other pending pretrial proceedings.
In response, Mr. Pinkerton filed his preliminary
opposition to the school’s motion to compel arbitration
and the school’s motion to stay discovery. Mr. Pinkerton
argued the threshold issue of the existence of an
enforceable arbitration agreement cannot be delegated
to an arbitrator but, instead, is always a decision for the
court. He also filed a motion to stay briefing and ruling
on the motion to compel arbitration until the parties could
conduct discovery related to the arbitration agreement.

42a
Appendix D
The circuit court sustained Mr. Pinkerton’s motion to stay
briefing and ruling on the motion to compel arbitration and
allowed the parties 90 days to conduct discovery limited to
“the issue of whether an arbitration contract was formed
and the scope of any arbitration contract.”
The school subsequently renewed its motion to
compel arbitration, contending Mr. Pinkerton had not
specifically challenged the delegation provision but
challenged only the arbitration agreement as a whole. In
response, Mr. Pinkerton argued he had challenged the
existence of the delegation provision by challenging the
existence of any arbitration agreement — including any
agreement to delegate issues of arbitrability — in his
preliminary opposition. Mr. Pinkerton also contended,
for the first time, that the delegation provision was not
clearly and unmistakably incorporated into the arbitration
agreement, that both the arbitration agreement and the
delegation provision lacked consideration, and that the
delegation provision was unconscionable.
After conducting a hearing on the matter, the circuit
court sustained the school’s motion to compel arbitration.4
The circuit court concluded the delegation provision was
enforceable because Mr. Pinkerton did not challenge the
delegation provision specifically. The circuit court further
held the provision provided for delegation of the gateway
question of whether the parties agreed to arbitrate and,
therefore, the issue of whether the arbitration agreement
4. In accordance with section 435.355.4, RSMo 2000, the circuit
court denied the school’s motion to dismiss and held the case was
properly stayed.

43a
Appendix D
was unconscionable is left to the arbitrator per the clear
and unmistakable intent of the parties expressed by the
incorporation of the AAA rules into the agreement.
Mr. Pinkerton petitions this Court for a writ of
mandamus or prohibition, requesting the Court order
the circuit court to overrule the school’s motion to compel
arbitration or, in the alternative, order the circuit court
to enforce discovery and allow Mr. Pinkerton to file
additional opposition to the school’s motion to compel
arbitration. This Court issued a preliminary writ of
prohibition. Mo. Const. art. V, sec. 4.
Standard of Review
This Court has the authority to “issue and determine
original remedial writs.” Id. Writs of prohibition or
mandamus are appropriate mechanisms to challenge
whether a motion to compel arbitration was improperly
sustained. State ex rel. Hewitt v. Kerr, 461 S.W.3d 798,
805 (Mo. banc 2015); see also State ex rel. Union Pac.
R.R. Co. v. David, 331 S.W.3d 666, 666 (Mo. banc 2011).
This Court reviews de novo the legal issue of “[w]hether
a valid, enforceable arbitration agreement exists.” Union
Pac., 331 S.W.3d at 667.
Analysis
Mr. Pinkerton contends the circuit court erred in
sustaining the school’s motion to compel arbitration. He
asserts the school’s incorporation of the AAA commercial
rules into the arbitration agreement did not “clearly and

44a
Appendix D
unmistakably” express the parties’ intent to delegate
threshold issues of arbitrability to an arbitrator. He
further contends the circuit court improperly ordered
arbitration because only a court, not an arbitrator, can
decide whether an arbitration agreement was formed.
Lastly, Mr. Pinkerton argues the circuit court erred in
finding he did not specifically challenge the delegation
provision’s validity and enforceability.
The Delegation Provision
The circuit court determined the arbitration agreement
contained an enforceable delegation provision delegating
issues of arbitrability to the arbitrator. Mr. Pinkerton
contends his signature on the enrollment agreement
was not evidence he agreed to delegate threshold issues
of arbitrability to the arbitrator because the delegation
provision was not included as part of the arbitration
agreement but was instead incorporated by reference to
the AAA commercial rules. Mr. Pinkerton argues that
incorporating a delegation provision by reference does not
meet the “clear and unmistakable” standard required to
show the parties intended an arbitrator to decide issues
of arbitrability.
Generally, any silence or ambiguity “concerning the
scope of arbitrable issues should be resolved in favor of
arbitration.” Mitsubishi Motors Corp. v. Soler ChryslerPlymouth, Inc., 473 U.S. 614, 626, 105 S. Ct. 3346, 87 L.
Ed. 2d 444 (1985) (internal quotation omitted). Issues will,
therefore, typically “be deemed arbitrable unless it is clear
that the arbitration clause has not included them.” First

45a
Appendix D
Options of Chi., Inc. v. Kaplan, 514 U.S. 938, 945, 115 S.
Ct. 1920, 131 L. Ed. 2d 985 (1995) (internal quotations
omitted). This has been referred to as the “presumption of
arbitrability.” Granite Rock Co. v. Int’l Bhd. of Teamsters,
561 U.S. 287, 300, 130 S. Ct. 2847, 177 L. Ed. 2d 567 (2010).
This presumption of arbitrability, however, is reversed
when considering whether a court or an arbitrator should
decide threshold questions of arbitrability. First Options,
514 U.S. at 944-45. Disputes about arbitrability include
those “questions such as whether the parties are bound by
a given arbitration clause, or whether an arbitration clause
in a concededly binding contract applies to a particular
type of controversy.” BG Grp. PLC v. Republic of Arg.,
134 S. Ct. 1198, 1206, 188 L. Ed. 2d 220 (2014) (internal
quotations omitted). Disputes over the formation of the
parties’ arbitration agreement and its enforceability or
applicability to the dispute at issue have been considered
threshold issues of arbitrability. Id. at 1206-07. When
considering whether parties have intended to delegate
threshold questions of arbitrability to an arbitrator,
“[c]ourts should not assume that the parties agreed
to arbitrate arbitrability unless there is clea[r] and
unmistakabl[e] evidence that they did so.” Rent-A-Ctr., W.,
Inc. v. Jackson, 561 U.S. 63, 69 n.1, 130 S. Ct. 2772, 177 L.
Ed. 2d 403 (2010) (internal quotation omitted) (alteration
in original). This “‘clear and unmistakable’ requirement
. . . pertains to the parties’ manifestation of intent” that
issues of arbitrability be decided by the arbitrator instead
of the court. Id. at 69 n.1 (emphasis omitted).

46a
Appendix D
The United States Supreme Court has addressed
why different standards are necessary when considering
“whether a particular merits-related dispute is arbitrable”
versus “who (primarily) should decide arbitrability.” First
Options, 514 U.S. at 944-45 (emphasis omitted). The
Supreme Court explained:
[T]his difference in treatment [between
whether a particular merits-related dispute
is arbitrable or who (primarily) should decide
arbitrability] is understandable. The latter
question arises when the parties have a contract
that provides for arbitration of some issues. In
such circumstances, the parties likely gave at
least some thought to the scope of arbitration.
And given the law’s permissive policies in
respect to arbitration, one can understand
why the law would insist upon clarity before
concluding that the parties did not want to
arbitrate a related matter. On the other hand,
the former question — the who (primarily)
should decide arbitrability question — is
rather arcane. A party often might not focus
upon that question or upon the significance of
having arbitrators decide the scope of their own
powers. And, given the principle that a party
can be forced to arbitrate only those issues it
specifically has agreed to submit to arbitration,
one can understand why courts might hesitate
to interpret silence or ambiguity on the “who
should decide arbitrability” point as giving
the arbitrators that power, for doing so might

47a
Appendix D
too often force unwilling parties to arbitrate a
matter they reasonably would have thought a
judge, not an arbitrator, would decide.
Id. at 945 (internal quotations and citations omitted)
(emphasis omitted).
Mr. Pinkerton interprets the “clear and unmistakable”
standard to prohibit the delegation provision from being
incorporated by reference into an arbitration agreement.
He contends that no clear and unmistakable evidence
exists of the parties’ mutual assent to the delegation
provision unless the delegation provision is expressly
written into an arbitration agreement. Mr. Pinkerton
incorrectly assumes that a contract is silent or ambiguous
about who should decide arbitrability if the delegation
provision is incorporated into an arbitration agreement
by reference.
While the Supreme Court has referred to the
“clear and unmistakable” standard as a “heightened
standard,” First Options explains it is “heightened”
insofar as it is a higher standard than the “presumption
of arbitrability” standard applied when interpreting
“silence” or “ambiguity” related to the scope of arbitration
provisions. Rent-A-Ctr., 561 U.S. at 69 n.1. The Supreme
Court has not held the “clear and unmistakable” standard
is heightened in relation to generally applicable principles
of contract interpretation.
Interpretation of a written contract is a question of
law. Webbe v. Keel, 369 S.W.3d 755, 756 (Mo. App. 2012).

48a
Appendix D
In Missouri, “the primary rule of contract interpretation
is that courts seek to determine the parties’ intent and
give effect to it.” Chochorowski v. Home Depot U.S.A.,
404 S.W.3d 220, 226 (Mo. banc 2013). “The intention of
the parties is to be gleaned from the four corners of the
contract.” L.A.C. ex rel. D.C. v. Ward Parkway Shopping
Ctr. Co., 75 S.W.3d 247, 260 (Mo. banc 2002). Each clause
“must be read in the context of the entire contract, and
interpretations that render provisions meaningless should
be avoided.” McGuire v. Lindsay, 496 S.W.3d 599, 607
(Mo. App. 2016). This Court determines the parties’ intent
as “expressed by the plain and ordinary meaning of the
language of the contract.” Chochorowski, 404 S.W.3d
at 226. “When the language of a contract is clear and
unambiguous, the intent of the parties will be gathered
from the contract alone, and a court will not resort to a
construction where the intent of the parties is expressed
in clear and unambiguous language.” Id. at 226-27. “It
is only where the contract is ambiguous and not clear
that resort to extrinsic evidence is proper to resolve the
ambiguity.” J. E. Hathman, Inc. v. Sigma Alpha Epsilon
Club, 491 S.W.2d 261, 264 (Mo. banc 1973).
M i s sou r i f u r t her r e cog n i z e s t hat “ m at t er s
incorporated into a contract by reference are as much
a part of the contract as if they had been set out in the
contract in haec verba.” Dunn Indus. Grp., Inc. v. City
of Sugar Creek, 112 S.W.3d 421, 435 n.5 (Mo. banc 2003).
Generally, “[t]erms not explicit in a contract may be
incorporated into the contract by reference” so long as
the “intent to incorporate [is] clear.” Hewitt, 461 S.W.3d
at 810-11. “To incorporate terms from another document,

49a
Appendix D
the contract must make [] clear reference to the document
and describe[] it in such terms that its identity may be
ascertained beyond a doubt.” Id. Parties may, therefore,
“incorporate contractual terms by reference to a separate,
noncontemporaneous document, including a separate
agreement to which they are not parties, including a
separate document which is unsigned.” Intertel, Inc. v.
Sedgwick Claims Mgmt. Servs., 204 S.W.3d 183, 196 (Mo.
App. 2006). There is no requirement that an incorporated
document be attached to the contract or provided to the
parties prior to the execution of the contract.
Here, the parties’ arbitration agreement specifically
references the AAA’s commercial arbitration rules.
At the time Mr. Pinkerton signed the enrollment
agreement, the AAA’s “Commercial Arbitration Rules
with Supplementary Procedures for Consumer-Related
Disputes” governed all consumer arbitration disputes. The
reference to the AAA’s commercial rules in the arbitration
agreement was not a mere passing reference to these
rules; instead, it was a clear reference to an identifiable,
ascertainable set of rules. Such a reference establishes
the parties’ intent to incorporate the AAA commercial
arbitration rules into the enrollment agreement.
This finding is consistent with most federal circuit
courts, which have concluded arbitration agreements
containing similar language were sufficient to incorporate
by reference the delegation provision in the AAA rules.
For example, arbitration agreements stating disputes
will be “settled by,” “conducted by,” and “determined by”
arbitration “in accordance with” specific rules containing

50a
Appendix D
a delegation provision have been held to have “clearly and
unmistakably” incorporated the delegation provision into
the arbitration agreement. Brennan v. Opus Bank, 796
F.3d 1125, 1129 (9th Cir. 2015) (“settled by”); Petrofac,
Inc. v. DynMcDermott Petroleum Operations Co., 687
F.3d 671, 674 (5th Cir. 2012) (“conducted by”); Fallo v.
High — Tech Inst., 559 F.3d 874, 877-78 (8th Cir. 2009)
(“settled by”); Qualcomm Inc. v. Nokia Corp., 466 F.3d
1366, 1373 (Fed. Cir. 2006) (“settled by”); Terminix Int’l
Co. v. Palmer Ranch LP, 432 F.3d 1327, 1332 (11th Cir.
2005) (“conducted”); Contec Corp. v. Remote Solution
Co., 398 F.3d 205, 208 (2d Cir. 2005) (“determined by”). 5

5. Only the Tenth Circuit has held an arbitration agreement
that specifically referenced the AAA commercial arbitration rules
did not clearly and unmistakably delegate “whether an arbitration
agreement exists or what the scope of the agreement is” to an
arbitrator. Riley Mfg. Co., Inc. v. Anchor Glass Container Corp., 157
F.3d 775, 780 (10th Cir. 1998). Riley, however, was decided before
Rent-A-Center and did not consider whether the AAA commercial
arbitration rules were incorporated by reference into the arbitration
agreement. Instead, the Tenth Circuit held that, although the
arbitration clause in the contract was broadly written, there was
“no hint in the text of the clause or elsewhere in the contract that
the parties expressed a specific intent to submit to an arbitrator the
question whether an agreement to arbitrate exists or remained in
existence after the Settlement Agreement.” Id. at 780. Accordingly,
it is unclear whether the parties raised the issue of incorporation
of the AAA rules’ delegation provision. See also Quilloin v. Tenet
HealthSystem Phila., Inc., 673 F.3d 221, 229-30 (3d Cir. 2012)
(not discussing whether the contract’s incorporation of the AAA
rules required delegation of threshold issues of arbitrability to an
arbitrator).

51a
Appendix D
The dissenting opinion attempts to differentiate
these federal cases on the basis that all but one involved
sophisticated parties, not a mere consumer such as
Mr. Pinkerton.6 But in doing so, the dissenting opinion
ignores longstanding Missouri contract principles and,
instead, advocates for adoption of a standard that would
have far-reaching consequences beyond interpretation of
arbitration agreements.

6. The dissenting opinion relies on 50 Plus Pharmacy v. Choice
Pharmacy Systems, LLC, 463 S.W.3d 457 (Mo. App. 2015), and Dolly
v. Concorde Career Colleges, Inc., 2017 Mo. App. LEXIS 988, 2017
WL 4363863 (Mo. App. Oct. 3, 2017), for the proposition that a mere
reference to the AAA commercial rules does not establish the parties
clearly and unmistakable intended to delegate threshold issues of
arbitrability. But 50 Plus Pharmacy is factually distinguishable in
that: (1) the contract at issue specifically stated the parties consented
to litigate any disputes arising out of the contract in courts located
in Missouri and did not contain an arbitration provision; and (2)
although the agreement containing the arbitration agreement
was incorporated into the contract by reference, the arbitration
agreement related to the narrow topic of escrow claims, which were
not at issue in the case. 463 S.W.3d at 461. Moreover, the court of
appeals in Dolly disregarded the arbitration provision’s reference
to the AAA rules by reasoning that although “the language in
the relevant AAA Rules might be clear and unmistakable, that
language is not recited in the agreement signed by the Students.”
2017 Mo. App. LEXIS 988, 2017 WL 4363863, at *3. Such an analysis
ignores the principle that “matters incorporated into a contract by
reference are as much a part of the contract as if they had been set
out in the contract in haec verba.” Dunn Indus. Grp., 112 S.W.3d
at 435 n.5. Accordingly, to the extent 50 Plus Pharmacy and Dolly
hold that incorporation by reference of the AAA rules is insufficient
to establish the parties intended to delegate threshold issues of
arbitrability, they should no longer be followed.

52a
Appendix D
The dissenting opinion asserts whether Mr. Pinkerton
intended to incorporate the AAA rules is a factual question
that should be put to the parties’ proof. But for purposes
of contract interpretation, the intent of the parties is a
question of law to be determined from the four corners of
the contract. Whelan Sec. Co. v. Kennebrew, 379 S.W.3d
835, 846 (Mo. banc 2012). It is only when an ambiguity
arises and cannot be resolved within the four corners of
the contract that “the parties’ intent can be determined
by use of parol evidence.” Id. Only then does the parties’
intent become “a factual issue to be resolved by the finder
of fact.” Id.
The dissenting opinion recognizes these principles
but contends this Court must look at the “context” of an
agreement — including who signed it and the nature of the
agreement — to determine ambiguity. More specifically,
the dissenting opinion asserts that the unsophisticated
nature of a party is key to the determination of
ambiguity and that “when a consumer contract purports
to incorporate by reference another writing, the court
should determine whether the parties actually know and
understand the provisions to be included.”
But the dissenting opinion is mischaracterizing the
general proposition that “ambiguity depends on context”
to conclude “context” means consideration of the parties’
circumstances and whether they actually know and
understand the incorporated provision. Such a subjective
standard is not what this Court means by considering the
“context” of an agreement. Rather, “context” means the
reading of the agreement as a whole to determine whether

53a
Appendix D
an ambiguity exists. J. E. Hathman, 491 S.W.2d at 264; see
also Purcell Tire & Rubber Co., v. Exec. Beechcraft, Inc.,
59 S.W.3d 505, 510 (Mo. banc 2001) (“Contract language
is not interpreted in a vacuum, but by reference to the
contract as a whole.”).
Furthermore, while the dissenting opinion cites to
cases that mention the sophistication of the parties, such
cases do not support the subjective “context” standard
advocated for by the dissenting opinion. Instead, such
cases address specific contract provisions or clauses —
such as exculpatory clauses, indemnity clauses, forum
selection clauses, and jury trial waivers — that impose
additional requirements for a specific provision or clause
to be enforceable.
For instance, in addressing exculpatory and indemnity
clauses, this Court held limitations or shifts of liability in
contracts are enforceable if the exculpatory or indemnity
clause contains clear, unambiguous, unmistakable, and
conspicuous language. Alack v. Vic Tanny Intern. of
Mo., Inc., 923 S.W.2d 330, 337-38 (Mo. banc 1996). In
determining the clause’s enforceability, this Court did
not consider parol evidence as to the parties’ subjective
intent regarding the clause. Instead, the Court required
the clause to include specific terms like “‘negligence’ or
‘fault’ or their equivalents” that would conspicuously shift
the liability. Id. at 337. This Court subsequently held that
requirement does not govern contracts when the parties
are both sophisticated businesses. Purcell Tire, 59 S.W.3d
at 509. But again, the parties’ subjective intent was not
examined. This Court simply recognized: “Sophisticated

54a
Appendix D
businesses that negotiate at arm’s length may limit
liability without specifically mentioning ‘negligence,’
‘fault,’ or an equivalent.” Id. “Sophisticated parties have
freedom of contract — even to make a bad bargain, or to
relinquish fundamental rights.” Id. at 508.
Similarly, in High Life Sales Co. v. Brown-Forman
Corp., 823 S.W.2d 493, 497 (Mo. banc 1992), this Court
adopted the majority rule that forum selection clauses
will be enforced, so long as doing so is neither unfair
or unreasonable. In considering whether to enforce the
forum selection clause, this Court considered whether
“the contract was entered into under circumstances that
caused it to be adhesive” — that is, a contract “in which
the parties have unequal standing in terms of bargaining
power.” Id. There was no consideration of whether the
parties subjectively understood the forum selection clause.
Id. Instead, this Court reasoned “the important factor is
that the contract terms were generally arrived at under
circumstances that cannot be described as ‘adhesive.’” Id.
Finally, in Malan Realty Investors, Inc. v. Harris, 953
S.W.2d 624, 627 (Mo. banc 1997), this Court held that the
parties’ waiver of a right to a jury trial must be knowing
and voluntary. But in doing so, this Court recognized
that “more than contract law is involved.” Id. And while
the Court acknowledged “[t]he real concern with every
case decision has been the relative bargaining powers of
the parties,” the analysis focused primarily on whether
the written agreement contained “clear, unambiguous,
unmistakable, and conspicuous language” such that a
knowing and voluntary waiver of the right to a jury trial
was evident. Id.

55a
Appendix D
It follows that none of the cases considering the
sophistication of the parties addresses arbitration
agreements, and each case presents an exception to
general principles of contract law. The United States
Supreme Court has held arbitration can be limited only
by application of principles of general contract law, AT&T
Mobility LLC v. Concepcion, 563 U.S. 333, 339, 131 S. Ct.
1740, 179 L. Ed. 2d 742 (2011), so this Court cannot make
a rule specifically applicable to arbitration delegation
clauses.
The dissenting opinion also relies on several federal
district court cases — all from the Ninth Circuit — and
a few state cases. This is because Missouri courts have
never considered the sophistication of the contractual
parties in determining the parties’ intent with respect to
arbitration agreements. Rather, Missouri courts apply
the longstanding principle that a party’s failure to read
or understand the terms of a contract is not a defense to
enforcement of those terms. Robinson v. Title Lenders,
Inc., 364 S.W.3d 505, 509 n.4 (Mo. banc 2012). Missouri
contract law, therefore, generally does not support
differential treatment for consumers for purposes of
contract interpretation.
Finally, were this Court to adopt the dissenting
opinion’s approach, its impact would extend beyond
interpretation of arbitration agreements. Arbitration
agreements are placed “on an equal footing with other
contracts, and courts will examine arbitration agreements
in the same light as they would examine any contractual
agreement.” Triarch Indus., Inc. v. Crabtree, 158 S.W.3d

56a
Appendix D
772, 776 (Mo. banc 2005). Therefore, this Court would
have to consider the parties’ sophistication in determining
intent in all contracts.
Applying Missouri’s general contract principles to
this case, Mr. Pinkerton agreed the AAA commercial
arbitration rules, which include a delegation provision,
would govern arbitration disputes. By clearly referencing
the A A A commercial arbitration rules, the parties
expressed their intent to arbitrate any dispute under these
rules, including the AAA’s “jurisdiction” rule providing
that the “[a]rbitrator shall have the power to rule on his
or her own jurisdiction, including any objections with
respect to the existence, scope or validity of the arbitration
agreement.” Accordingly, the delegation provision clearly
and unmistakably evidences the parties’ intent to delegate
threshold issues of arbitrability to the arbitrator.7
7. The dissenting opinion argues that finding the parties
incorporated the AAA commercial arbitration rules by reference
conflicts with this Court’s analysis in Hewitt, 461 S.W.3d at 811.
Hewitt, however, is factually distinguishable from the present case.
In Hewitt, an employment agreement contained an arbitration
provision that incorporated the NFL’s constitution and bylaws, which
gave the commissioner complete authority to arbitrate and stated
the commissioner shall, from time to time, establish procedures
and policies with respect to the constitution and bylaws. Id. at 810.
The constitution and bylaws did not reference the NFL dispute
resolution guidelines. Id. Nevertheless, the trial court found the
NFL dispute resolution guidelines governed the arbitration process.
Id. This Court held the guidelines did not meet the requirements
for incorporation by reference because the guidelines were not a
separate, non-contemporaneous document described in terms such
that their identity could be ascertained beyond a doubt. Id. at 811.
Unlike the guidelines in Hewitt, the AAA commercial arbitration

57a
Appendix D
Enforceability of the Delegation Provision
Upon finding the parties clearly and unmistakably
intended to delegate threshold issues to the arbitrator,
the circuit court concluded the delegation provision was
enforceable and compelled arbitration. Mr. Pinkerton
asserts the circuit court erroneously compelled arbitration
because state and federal arbitration law require the
circuit court to adjudicate the threshold question of
whether an arbitration agreement was formed. But such
an argument ignores the nature of his challenges to the
arbitration agreement, the severability of the delegation
provision, and his failure to specifically challenge the
enforceability of such provision.
First, Mr. Pinkerton contends threshold issues of the
formation of an arbitration agreement cannot be delegated
to an arbitrator. Under the Federal Arbitration Act
(FAA), 8 arbitration is solely a matter of contract. AT & T
rules were specifically referenced in the enrollment agreement.
Because the enrollment agreement specifically identified the rules,
which Mr. Pinkerton could have ascertained beyond a doubt, there
was no lack of certainty as to the arbitration terms referenced by
the enrollment agreement.

8. Neither party contests that the FAA governs the arbitration
agreement in the enrollment agreement. 9 U.S.C. §§ 1-16 (2006).
The FAA governs the validity, irrevocability, and enforcement of
agreements to arbitrate in contracts “evidencing a transaction
involving commerce.” 9 U.S.C. § 2. Because the school is a Virginiabased corporation operating aviation maintenance schools throughout
the United States, its enrollment agreement with Mr. Pinkerton is a
contract falling within the purview of the FAA. 9 U.S.C. § 1 (defining
commerce as “commerce among the several States”).

58a
Appendix D
Techs., Inc. v. Commc’ns Workers of Am., 475 U.S. 643,
648, 106 S. Ct. 1415, 89 L. Ed. 2d 648 (1986). Accordingly,
“arbitrators derive their authority to resolve disputes only
because the parties have agreed in advance to submit
such grievances to arbitration.” Id. Parties “cannot be
required to submit to arbitration any dispute which he [or
she] has not agreed so to submit.” Id. (internal quotations
omitted). Therefore, because arbitration “is a matter of
consent, not coercion,” Stolt-Nielsen S.A. v. AnimalFeeds
Int’l Corp., 559 U.S. 662, 681, 130 S. Ct. 1758, 176 L. Ed. 2d
605 (2010), a court must be satisfied that the parties have
“concluded” or formed an arbitration agreement before
the court may order arbitration to proceed according to
the terms of the agreement. Granite Rock, 561 U.S. at
299; Buckeye Check Cashing, Inc. v. Cardegna, 546 U.S.
440, 444 n.1, 126 S. Ct. 1204, 163 L. Ed. 2d 1038 (2006).
Questions concerning whether an arbitration agreement
was ever concluded are, therefore, “generally nonarbitral
question[s].” Granite Rock, 561 U.S. at 296-97.
Nevertheless, Mr. Pinkerton does not challenge
whether the arbitration agreement was formed or
concluded. Instead, Mr. Pinkerton challenges the
conscionability of such arbitration agreement. While this
Court has held unconscionability is a state law defense to
contract formation, see Brewer v. Mo. Title Loans, 364
S.W.3d 486, 493 (Mo. banc 2012), conscionability is not an
essential element of contract formation. As recognized
by the Supreme Court, unconscionability is a “generally
applicable contract defense[]” like fraud and duress. RentA-Ctr., 561 U.S. at 68. As such, while unconscionability is a
defense to contract formation and, therefore, a contract’s

59a
Appendix D
validity and enforceability, Eaton v. CMH Homes, Inc.,
461 S.W.3d 426, 432 (Mo. banc 2015), it is not an issue
of whether a contract has ever been “concluded.” 9 See
Buckeye, 546 U.S. at 444 n.1.
Mr. Pinkerton’s mischaracterization of the issue
of unconscionability as a formation issue rather than
enforceability has no impact on the resolution of this
case, however, because both issues of formation and
enforceability of arbitration clauses can be delegated to
an arbitrator. Mr. Pinkerton does not cite any case law
prohibiting issues of formation from being delegated to
the arbitrator. Mr. Pinkerton relies on Baker v. Bristol
Care, Inc., 450 S.W.3d 770 (Mo. banc 2014), for the
proposition that formation issues can never be delegated
to an arbitrator. In Baker, this Court held a delegation
provision that provided the “arbitrator [would] resolve
disputes ‘relating to the applicability or enforceability’
of the agreement” did not delegate issues of contract
formation to the arbitrator. Id. at 774. Baker, however,
does not state that issues related to contract formation
can never be delegated to an arbitrator but only that
the delegation provision at issue in Baker was limited to
issues of “applicability” or “enforceability.” In contrast,
the delegation provision at issue here is broader than in
Baker. It delegates to the arbitrator “the power to rule
on his or her own jurisdiction, including any objections
with respect to the existence, scope, or validity of the
9. Issues as to whether a contract has been “concluded” include
whether: a contract was signed by the obligor, a signor lacked
authority to sign a contract to commit a principal, or a signor lacked
the mental capacity to sign a contract. Buckeye, 546 U.S. at 444 n.1.

60a
Appendix D
arbitration agreement or to the arbitrability of any claim
or counterclaim.”
Mr. Pinkerton also cites Jimenez v. Cintas Corp.,
475 S.W.3d 679, 683-84 (Mo. App. 2015), Hopwood v.
CitiFinancial, Inc., 429 S.W.3d 425, 427 (Mo. App. 2014),
and Bellemere v. Cable-Dahmer Chevrolet, Inc., 423
S.W.3d 267, 273 (Mo. App. 2013), for the proposition that
courts cannot delegate formation issues to an arbitrator.
These cases, however, involved no discussion of a
delegation provision and, therefore, are distinguishable
from the present case. Consequently, the circuit court
did not err in concluding the challenges raised by Mr.
Pinkerton could be delegated to an arbitrator.
Mr. Pinkerton further asserts the circuit court
erroneously concluded the delegation provision was
enforceable. As the circuit court reasoned, however, the
delegation provision is a severable, antecedent agreement
to arbitrate threshold issues Mr. Pinkerton failed to
specifically challenge.
The FAA provides:
A written provision in . . . a contract evidencing
a transaction involving commerce to settle by
arbitration a controversy thereafter arising out
of such contract . . . shall be valid, irrevocable,
and enforceable, save upon such grounds as
exist at law or in equity for the revocation of
any contract.

61a
Appendix D
9 U.S.C. § 2. “The FA A thereby places arbitration
agreements on an equal footing with other contracts, and
requires courts to enforce them according to their terms.”
Rent-A-Ctr., 561 U.S. at 67 (internal citation omitted). But
similar to other contracts, arbitration agreements “may be
invalidated by generally applicable contract defenses, such
as fraud, duress, or unconscionability.” Id. at 68 (internal
quotation omitted).
To invalidate an arbitration agreement a specific
challenge must be made to the arbitration agreement,
not to the contract as a whole. Ellis v. JF Enters., LLC,
482 S.W.3d 417, 423-24 (Mo. banc 2016). This “is because
§ 2 [of the FAA] states that a ‘written provision’ ‘to settle
by arbitration a controversy’ is ‘valid, irrevocable, and
enforceable’ without mention of the validity of the contract
in which it is contained.” Rent-A-Ctr., 561 U.S. at 67
(emphasis omitted). Arbitration agreements, therefore,
are severable. Ellis, 482 S.W.3d at 419. “This means that
they are to be considered separate and apart from any
underlying or contemporaneously related agreement.” Id.
It is under this framework that the Supreme Court
determined a delegation provision is an additional,
severable agreement to arbitrate threshold issues that is
valid and enforceable unless a specific challenge is levied
against the delegation provision. Rent-A-Ctr., 561 U.S.
at 71. In Rent-A-Center, the defendant sought to compel
arbitration. Id. at 65. The plaintiff asserted the arbitration
agreement, as a whole, was unenforceable because it
was unconscionable under state law. Id. at 66. In finding
the controversy was subject to arbitration, the Supreme

62a
Appendix D
Court focused on the delegation provision. Id. at 68-69.
The Supreme Court explained: “The delegation provision
is an agreement to arbitrate threshold issues concerning
the arbitration agreement.” Id. at 68. “An agreement
to arbitrate a gateway issue is simply an additional,
antecedent agreement the party seeking arbitration
asks the . . . court to enforce, and the FAA operates on
this additional arbitration agreement just as it does on
any other.” Id. at 70. Such delegation provisions are valid
under section 2 of the FAA “save upon such grounds as
exist at law or in equity for the revocation of any contract.”
Id. (internal quotation omitted). Therefore, unless the
plaintiff “challenged the delegation provision specifically,
[the Supreme Court] must treat it as valid under § 2, and
must enforce it under §§ 3 and 4, leaving any challenge
to the validity of the [a]greement as a whole for the
arbitrator.” Id. at 72. The Supreme Court then concluded
the defendant was seeking to enforce the delegation
provision and the plaintiff challenged the arbitration
agreement as a whole and not the delegation provision
specifically. Id. The delegation provision, therefore, was
enforceable, and the gateway issues of arbitrability were
delegated to the arbitrator. Id.
Similarly, in seeking to compel arbitration, the
school sought enforcement of the incorporated delegation
provision. The delegation provision, as an additional,
antecedent agreement to arbitrate threshold issues, is
valid and enforceable under the FAA unless specifically
challenged by Mr. Pinkerton.

63a
Appendix D
The only specific challenge Mr. Pinkerton raised
before the circuit court as to the enforceability of the
delegation provision was his contention the delegation
provision was unconscionable on the sole ground that “[i]t
would be unconscionable to delegate such a determination
[of unconscionability] to a person with a direct financial
interest in the outcome.” Such a contention, however, is
defeated by the Supreme Court’s holding in Rent-A-Center
that issues of unconscionability can be delegated to an
arbitrator. 561 U.S. at 73-74. Mr. Pinkerton’s challenge
to the delegation provision, therefore, is without merit.
Although Mr. Pinkerton now claims, on appeal, he
raised other challenges to the validity or enforcement
of the delegation clause separate from his challenges
to the arbitration agreement as a whole, he did not. Mr.
Pinkerton’s various challenges were to the arbitration
agreement as a whole. For example, Mr. Pinkerton asserted
“there was no meeting of the minds as to the arbitration
clause” because “its terms are incomprehensible.” Mr.
Pinkerton also asserted the “print of the arbitration
clause is too small as to be virtually unreadable” and the
“arbitration clause is, both on its face and in practice, a
model of unconscionability.” While a party may challenge
a delegation provision by arguing “common procedures
as applied to the delegation provision rendered that
provision unconscionable,” id. at 74 (emphasis omitted),
Mr. Pinkerton did not direct his challenges specifically
to the delegation provision. Instead, he argued the
“incomprehensible” terms and the print rendered the
entire arbitration clause invalid and the entire arbitration
clause was unconscionable. These are challenges to the

64a
Appendix D
arbitration agreement as a whole, not to the delegation
provision specifically.
Additionally, Mr. Pinkerton asserts the arbitration
agreement is unconscionable because the “clause purports
to require the parties to share arbitration expenses
equally, in contravention of even the AAA’s own express
rules requiring the business in any consumer dispute
. . . to bear substantially all arbitration costs.” Mr.
Pinkerton contends this conflict between the fee sharing
provision in the arbitration agreement and the AAA’s rules
makes the entire “clause” unconscionable. This too is not
a specific challenge to the delegation provision.10
Mr. Pinkerton also asserts the arbitration clause
“facially and in practice unilaterally imposes arbitration
on only one party — the student” and “no student
has ever . . . been allowed to opt out of the arbitration
provision.” Because both the school and Mr. Pinkerton
are required to submit threshold questions of arbitrability
to the arbitrator, these challenges could only refer to
the arbitration provision defining the scope of arbitrable
claims. Likewise, Mr. Pinkerton contended that this
10. Moreover, Mr. Pinkerton did not raise this specific challenge
in his pleadings before the circuit court. In his opposition to the
defendants’ motion to stay the circuit court’s September 8 order,
Mr. Pinkerton lists the general factors of unconscionability, stating:
“Each of these factors supports a finding of unconscionability with
regard to the arbitration agreements and delegation provisions
utilized by Defendants in their Enrollment Agreements.” No specific
challenge to the fee sharing provision of the arbitration agreement
was made in his pleadings before the circuit court. See Rule 84.13(a).

65a
Appendix D
“arbitration clause is facially incomprehensible as to
what claims would be covered by it” and, specifically,
whether “the arbitration clause . . . applies to a claim
by a student against [the school] for fraud.” Again, such
contentions apply only to the arbitration provision that
defines the scope of claims that are arbitrable. Similarly,
Mr. Pinkerton’s contention that “the clause purports to
limit students’ remedies” also refers only to the arbitration
of specific disputes arising out of “student admission,
enrollment, financial obligations and status as a student”
and not the arbitration of threshold issues of arbitrability.
Accordingly, none of these challenges are directed
specifically to the delegation provision.11
Although Mr. Pinkerton challenges the validity of
the arbitration agreement as a whole, his only specific
challenge to the delegation agreement — that it was
unconscionable to delegate formation issues to an
arbitrator — is without merit, and he did not otherwise
direct any specific challenges to the delegation provision.12
11. In his brief before this Court, Mr. Pinkerton also references
arguments from his reply in support of his motion to stay briefing
and his sur-reply in opposition to the defendants’ motion to stay
discovery. The circuit court overruled Mr. Pinkerton’s motion for
leave to file these documents; therefore, these arguments were not
before the circuit court. Following the school’s renewed motion to
compel arbitration, Mr. Pinkerton filed opposition to the school’s
motion and had an opportunity to raise these additional arguments
in the circuit court.
12. The dissenting opinion contends the record clearly shows
Mr. Pinkerton specifically challenged the delegation provision and
points to a motion he filed stating in capital letters that he “disputes
the existence and enforceability of any agreement to delegate issues

66a
Appendix D
This Court must, therefore, treat the delegation provision
“as valid under § 2 [of the FAA], and must enforce it under
§§ 3 and 4, leaving any challenge to the validity of the [a]
greement as a whole,” or to other provisions within the
arbitration agreement, “for the arbitrator.” Id. at 72.
The circuit court, therefore, did not err in ordering the
parties to arbitrate threshold issues of arbitrability. The
preliminary writ of prohibition is quashed, and the case
shall proceed to arbitration.
Conclusion
The arbitration agreement clearly and unmistakably
evidences the parties’ intent to delegate threshold issues
of arbitrability to the arbitrator. Because Mr. Pinkerton’s
only specific challenge to the delegation provision — that
it would be unconscionable to delegate a determination
of unconscionability to a person with a direct financial
interest in the outcome — is without merit, the delegation
provision is valid and enforceable under the FAA. The
circuit court, therefore, properly sustained the school’s
motion to compel arbitration, staying the case and ordering
the parties to proceed to arbitration. The preliminary writ
is quashed.13
of arbitrability to an arbitrator.” What the dissenting opinion ignores
is that Mr. Pinkerton then proceeded to challenge the arbitration
agreement as a whole. Again, a delegation provision is a severable
agreement that is enforceable unless a specific challenge is levied
against the provision. Rent-A-Ctr., 561 U.S. at 71. Therefore, despite
his contentions to the contrary, Mr. Pinkerton failed to levy a direct
challenge to the delegation provision.

13. In the alternative, Mr. Pinkerton seeks a writ of mandamus
requiring the circuit court to enforce discovery and allow him to file

67a
Appendix D
/s/					
Patricia Breckenridge, Judge
Fischer, C.J., Wilson and Russell, JJ., concur;
Stith, J., dissents in separate opinion filed;
Draper, J., concurs in opinion of Stith, J.
Powell, J., not participating.

additional opposition to the school’s motion to compel arbitration.
In support of his alternative theory, Mr. Pinkerton asserts: “If this
Court finds the record is not yet sufficient to deny the motions to
compel arbitration, [he] should be afforded the remainder of the
arbitration-related discovery he seeks, and an opportunity to adduce
all the relevant evidence and his arguments.” Because this Court
does not find the record to be insufficient, this Court rejects Mr.
Pinkerton’s alternative grounds for a writ of mandamus.

68a
Appendix D
DISSENTING OPINION
I dissent.
The United States Supreme Court has held, “When
deciding whether the parties agreed to arbitrate a
certain matter (including arbitrability), courts generally
... should apply ordinary state-law principles that govern
the formation of contracts.” First Options of Chi., Inc.
v. Kaplan, 514 U.S. 938, 944, 115 S. Ct. 1920, 131 L.
Ed. 2d 985 (1995). But the Supreme Court added an
important qualification “applicable when courts decide
whether a party has agreed that arbitrators should
decide arbitrability: Courts should not assume that the
parties agreed to arbitrate arbitrability unless there is
‘clea[r] and unmistakabl[e]’ evidence that they did so.”
Id. (emphasis added); accord Rent-A-Ctr., W., Inc. v.
Jackson, 561 U.S. 63, 68, 130 S. Ct. 2772, 177 L. Ed. 2d
403 (2010). Therefore, the record must provide “clear and
unmistakable” evidence the parties intended to delegate
questions of arbitrability to the arbitrator.
The majority fails to give meaning to this high
standard of proof when it holds “clear and unmistakable”
evidence of such intent is irrebuttably provided based
solely on the fact Mr. Pinkerton signed a contract
referencing the American Arbitration Association’s rules
of arbitration and one of the unattached commercial AAA
rules at that time delegated issues of arbitrability to an
arbitrator. Regardless of whether this is a valid conclusion
for commercial or sophisticated parties — as numerous
federal courts have held — Mr. Pinkerton undeniably is

69a
Appendix D
an unsophisticated consumer, and only one of the cases
on which the majority relies involved an unsophisticated
party.
Despite the majority’s refusal to so recognize,
Missouri historically has required greater specificity and
protection for consumer contracts purporting to waive the
consumer’s litigation rights — including the right to jury
trial, forum selection clauses, and waiver of negligence
clauses — than it has for such provisions in a contract
between sophisticated parties. Rather than presuming
the consumer understands the contract, the courts look
to the record to determine whether the waiver is valid on
a case-by-case basis.
Applying these principles here, it is error to find
the contract’s mere incorporation of the unattached
and undescribed AAA rules would have unambiguously
signaled to an unsophisticated consumer that an
arbitrator rather than a judge would determine whether
the arbitration provision itself was valid. The contract’s
reference to the AAA rules is but one fact among many the
courts must consider in determining the factual issue of
whether the parties “clearly and unmistakably” intended
to delegate the arbitrability issue to the arbitrator.
I.

THE CONTRACT DID NOT UNAMBIGUOUSLY
DELEGAT E T H E IS SU E OF CON T R AC T
FORMATION TO THE ARBITRATOR

I agree with the majority that the intention of the
parties as to the meaning of a contract becomes a factual

70a
Appendix D
issue requiring a court to resort to parol evidence only
when an ambiguity arises and “cannot be resolved within
the four corners of the contract.” Whelan Sec. Co. v.
Kennebrew, 379 S.W.3d 835, 846 (Mo. banc 2012). When
the contract is ambiguous, however, the law is well-settled
that the issue of intent is a factual question as to which
parol evidence is admissible. Id.
While Missouri law provides that matters incorporated
by reference into a contract “are as much a part of the
contract as if they had been set out in the contract,”
Dunn Indus. Grp., Inc. v. City of Sugar Creek, 112
S.W.3d 421, 435 n.5 (Mo. banc 2003) (citations omitted),
Missouri law also is well-settled that “[m]ere reference”
to another agreement in the primary contract “is
insufficient to establish that [a party] bound itself to the”
other agreement, id. at 436. The party must specifically
incorporate by reference the secondary agreement to be
bound to it by contract principles. Id. at 436 n.5. Parties
can incorporate a separate document only if “the contract
makes clear reference to the document and describes it
in such terms that its identity may be ascertained beyond
doubt.” Intertel, Inc. v. Sedgwick Claims Mgmt. Servs.,
Inc., 204 S.W.3d 183, 196 (Mo. App. 2006).
This Court recently applied these rules in the
arbitration context in State ex rel. Hewitt v. Kerr, 461
S.W.3d 798, 811 (Mo. banc 2015). Hewitt held a vague or
indefinite incorporation by reference of arbitration rules
may make the contract ambiguous, and in such a case
the contract will be construed against the drafter. Id.
In Hewitt, the employment contract said it incorporated

71a
Appendix D
“Rules and Regulations of the National Football League.”
Id. at 803. Those rules in turn incorporated arbitration
guidelines of the NFL. Id. at 804. This Court concluded
the guidelines nonetheless were not binding on Mr.
Hewitt because the “guidelines were not referenced in
Mr. Hewitt’s employment contract, nor were they clearly
referenced in the constitution and bylaws. ... Th[e contract]
reference does not identify the guidelines in such a way
that Mr. Hewitt could ascertain them beyond doubt.” Id.
at 811. Hewitt continued:
At best, under the terms of the constitution
and bylaws, Mr. Hewitt agreed to arbitrate by
undefined terms that the commissioner would
establish. But these terms also lack certainty;
Mr. Hewitt had no way to identify these
terms and had no way to know that the NFL
intended the guidelines to govern arbitration
proceedings. Given the ambiguity of any terms
actually referenced, Mr. Hewitt could not
assent to them.
Moreover, Mr. Hewitt did not bear the burden
to seek out an unknown document not clearly
identified in his employment contract or the
constitution and bylaws. Though the NFL and
the Rams may have intended to incorporate
the guidelines into the constitution and bylaws
and the employment contract, respectively, it
is a well-settled rule that “[i]f ambiguous, [a
contract] will be construed against the drafter.”
Triarch Indus., Inc. v. Crabtree, 158 S.W.3d

72a
Appendix D
772, 776 (Mo. banc 2005). The Rams had the
burden to incorporate the terms in such a way
that Mr. Hewitt could manifest his consent.
Having failed to do so, Mr. Hewitt did not
assent to the essential terms of arbitration
found in the guidelines.
Id. (emphasis added).
While the majority says that no Missouri arbitration
case has looked at the context of an agreement to arbitrate
in determining its ambiguity, Hewitt did just that. In
determining whether the contract was ambiguous,
Hewitt did not merely note that the Rams contract said it
incorporated another matter and conclude this fact alone
unambiguously made the incorporated matter a part
of the contract. Instead, it looked at the terms, looked
at the rules incorporated, determined the incorporated
rules were not clear as to where to find the guidelines
they in turn incorporated, and determined the contract,
therefore, was ambiguous and must be interpreted against
the drafter. Id.
Even more directly on point is 50 Plus Pharmacy v.
Choice Pharmacy Systems, LLC, 463 S.W.3d 457 (Mo.
App. 2015). Missouri law long has provided, “Whether a
dispute is covered by an arbitration clause is relegated
to the courts as a matter of law and is to be determined
from the contract entered into by the parties.” Greenwood
v. Sherfield, 895 S.W.2d 169, 174 (Mo. App. 1995). 50 Plus
Pharmacy recognized “there is a significant difference
between the question of who should decide arbitrability

73a
Appendix D
versus whether arbitration should be compelled.” 463
S.W.3d at 460. While “the latter question ... operates
under a [presumption of arbitrability], the former ...
operates under a principle wherein the law reverses
the presumption.” Id. (citations omitted). In Missouri,
therefore, “unless the parties clearly and unmistakably
provide otherwise, the question of whether the parties
agreed to arbitrate is to be decided by the court, not the
arbitrator.” Id. at 461 (citations omitted).
The Missouri Court of Appeals recently followed 50
Plus Pharmacy in Dolly v. Concorde Career Colleges,
Inc., 2017 Mo. App. LEXIS 988, 2017 WL 4363863, at *3
(Mo. App. Oct. 3, 2017). Dolly involved a dispute over an
arbitration provision in an enrollment agreement between
a small college and its students. 2017 Mo. App. LEXIS
988, [WL] at *1. The enrollment agreement incorporated
the AAA rules by reference, and the college argued this
was sufficient evidence of the parties’ intent to delegate
arbitrability of their dispute to the arbitrator. 2017 Mo. App.
LEXIS 988, [WL] at *2. The appellate court disagreed,
however, noting, “While parties may agree to arbitrate ...
questions of arbitrability ... that would normally be for the
court[,] there must be clear and unmistakable evidence
of such [an] agreement.” Id. (internal quotations omitted).
The appellate court specified that, “While the language in
the relevant AAA Rules might be clear and unmistakable,
that language is not recited in the agreement signed by
the Students” and a “general reference to the AAA Rules
in an arbitration provision is not sufficient to establish
an agreement to delegate [arbitrability].” 2017 Mo. App.
LEXIS 988, [WL] at *3.

74a
Appendix D
The question of who the parties are and what parties
in their situation would understand the contract to mean
also has been recognized by other states in determining
whether a delegation clause in an arbitration agreement
is ambiguous. As the Supreme Court of Kentucky noted
in Dixon v. Daymar Colleges Group, LLC, 483 S.W.3d 332
(Ky. 2015), “when a party raises a good-faith [formation]
challenge to [an] arbitration agreement itself, that issue
must be resolved before a court can say that [the party]
clearly and unmistakably intended to arbitrate that very
validity question.” Id. at 342, quoting, Rent-A-Center, 561
U.S. at 82 (Stevens, J., dissenting). In Dixon, a group of
students argued an arbitration provision was not binding
on them “because their signature was physically inscribed
before the arbitration provision ... itself.” Id.
While Dixon conceded “the delegation provision was
clear,” it noted “the language of the delegation provision
is largely beside the point.” Id. Instead, the decision
confirmed “a trial court is tasked with determining
whether there exists a ‘valid, binding arbitration
agreement’ before it may order a case to arbitration.” Id.
at 341, quoting, JPMorgan Chase Bank, N.A. v. Bluegrass
Powerboats, 424 S.W.3d 902, 907 (Ky. 2014). Dixon found
language that incorporated subsequent amendments
inadequate to include the arbitration provision after the
signature line on the reverse side of the page. 483 S.W.3d
at 346; see also Walker v. Builddirect.Com Techs. Inc.,
2015 OK 30, 349 P.3d 549, 551 (Okla. 2015) (reciting general
incorporation rules requiring “a contract must make clear
reference to the extrinsic document to be incorporated,
describe it in such terms that its identity and location

75a
Appendix D
may be ascertained beyond doubt, and the parties to the
agreement [must have] had knowledge of and assented to
the incorporated provisions”).
The majority does not formally disagree with these
principles. But these principles are inconsistent with the
majority’s determination that the mere incorporation
of AAA rules is inherently unambiguous. To so hold is
error. The majority is required to look at the contract
as a whole, including who signed it and the nature of
the contract, and of the matters incorporated, before it
can determine whether incorporation of the AAA rules
“clearly and unmistakably” informed an unsophisticated
party such as Mr. Pinkerton that he was delegating to
an arbitrator the right to determine the validity of the
arbitration clause itself.
In particular, the majority is required to consider
the fact that this is a contract between a sophisticated
business entity and a consumer. The majority suggests
Missouri law just does not allow it to consider this fact
unless it first finds the contract ambiguous, even though
it is consideration of the unsophisticated nature of the
plaintiff that is key to the determination of ambiguity
in the first instance. Indeed, the majority even concedes
Missouri does consider the sophistication of the parties
when considering the validity of a waiver of the right to sue
the other party for their own negligence. But, it says, that
is an isolated exception, not relevant here. The majority
is wrong on all counts.

76a
Appendix D
Many Missouri cases, addressing a wide variety
of issues and in a myriad of contexts, have stated that
the sophistication of the parties properly is considered
in determining an agreement’s meaning and validity.
These cases are part of a long history of Missouri cases
recognizing that cases involving the giving up by an
unsophisticated party of a litigation right requires more
exacting scrutiny and consideration of the unsophisticated
nature of the signer in determining whether a contract is
unambiguous.
50 Plus Pharmacy specifically recognized “a general
reference to ‘the then Existing Commercial Arbitration
Rules of the American Arbitration Association[’] ... [is] not
the sort [of express delegation] addressed or contemplated
by the Rent-A-Center court as dictating delegation of
the gateway matter of the question of arbitrability to the
arbitrator.” 463 S.W.3d at 461. This is, of course, the very
question at issue in this case, and the same result should
be reached. Similarly, Dolly held mere reference to the
AAA rules “does not constitute ‘clear and unmistakable’
evidence of delegation to an arbitrator of disputes
relating to formation and enforceability of the arbitration
provision.” 2017 Mo. App. LEXIS 988, 2017 WL 4363863,
at *3.
Perhaps the most well-known decision about whether
the sophistication of the party determines the validity
of the waiver is Purcell Tire & Rubber Co. v. Executive
Beechcraft, Inc., 59 S.W.3d 505 (Mo. banc 2001). This
Court was tasked with determining whether an ambiguity
existed in a contract between two “sophisticated

77a
Appendix D
businesses, experienced in th[e] type of transaction.” Id.
at 510-11. In holding there was no ambiguity in the liability
waiver at issue, this Court specifically held “[a]mbiguity
depends on context” and “[l]anguage that is ambiguous
to an unsophisticated party may not be ambiguous to a
sophisticated commercial entity.” Id. at 510, citing, Alack
v. Vic Tanny Int’l of Mo., Inc., 923 S.W.2d 330, 338 n.4
(Mo. banc 1996) (emphasis added). It was only because
of the contract’s “commercial context,” that Purcell held
there was no ambiguity, repeatedly citing the fact the
parties were “sophisticated businesses” in each instance.
59 S.W.3d at 509-11.
The majority incorrectly suggests these cases have
no application here and just mean more specific language
must be used in to waive the seller’s negligence. This
misses the point. The reason more specific language
must be used is that an unsophisticated purchaser would
not understand the more general language was intended
to waive negligence unless that fact were spelled out
in the contract. The analogy is exact. Unsophisticated
persons such as Mr. Pinkerton would not understand that
incorporation of the AAA rules meant that an arbitrator
would decide issues of arbitrability unless that fact were
spelled out in the contract.
Moreover, Purcell’s recognition of the importance of
whether a party is sophisticated is not, as the majority
would suggest, an isolated instance. The principle the
majority adopts — that a provision that would be clear to a
sophisticated party may not be clear to an unsophisticated
one — has been applied time and again to attempts to

78a
Appendix D
get an unsophisticated consumer to contract to waive the
right to sue for negligence.14 Furthermore, the principle
14. In addition to Purcell, numerous other Missouri cases have
followed the same rationale in the context of liability waivers. See
Village of Big Lake v. BNSF Ry. Co., 433 S.W.3d 460, 468 (Mo. App.
2014) (“It is [] clear that a different standard applies to determine
whether general exculpatory clauses or indemnity clauses can cover
claims of future negligence depending on whether the parties to the
contract are sophisticated businesses, experienced in this type of
transaction.”) (citations omitted); National Info. Solutions, Inc. v.
Cord Moving & Storage Co., 475 S.W.3d 690, 692 (Mo. App. 2015)
(“In general, for a party to effectively release itself from or limit
liability for its own negligence, the language of the contract must be
clear, unequivocal, conspicuous and include the word ‘negligence’ or
its equivalent. But less precise language may be effective when the
contract is negotiated at arm’s-length between equally sophisticated
commercial entities.”) (citations omitted); Lone Star Indus., Inc.
v. Howell Trucking, Inc., 199 S.W.3d 900, 903 n.2 (Mo. App. 2006)
(“[C]ourts have drawn a distinction between contracts with
consumers and contracts between businesses of equal power and
sophistication.”); Caballero v. Stafford, 202 S.W.3d 683, 696 n.2 (Mo.
App. 2006) (“We do not ignore the principal [sic] that less precise
language may be effective in agreements negotiated at arms length
between equally sophisticated commercial entities.”); Milligan v.
Chesterfield Vill. GP, LLC, 239 S.W.3d 613, 616 n.3 (Mo. App. 2007)
(“Sophisticated businesses that negotiate at arm’s length may limit
liability without specifically mentioning ‘negligence,’ ‘fault,’ or an
equivalent.”); Easley v. Gray Wolf Invs., LLC, 340 S.W.3d 269,
273 (Mo. App. 2011) (finding it “significant[]” that “the evidence
established that [Appellant] was a relatively sophisticated party
contracting at arm’s length with [Respondent]”); Monsanto Co. v.
Gould Elecs., Inc., 965 S.W.2d 314, 316-17 (Mo. App. 1998) (“Here,
[Respondent] and [Appellant] are sophisticated commercial entities.
[Respondent] agreed to indemnify [Appellant] from ‘any and all
liabilities ....’ Such terms clearly and unequivocally provide for
[Respondent] to indemnify [Appellant] against any and all claims.”).

79a
Appendix D
on which these cases are founded — that “ambiguity
depends on context” and the sophistication of the parties
— was stated by Purcell as a general concept, and this
Court has recognized it as such. For example, Utility
Service & Maintenance, Inc. v. Noranda Aluminum,
Inc., 163 S.W.3d 910, 913 (Mo. banc 2005), a case involving
an indemnity provision in a contract between two
“sophisticated commercial entities,” said Missouri “has
[and continues to] draw[] a distinction between contracts
with consumers and contracts between businesses of equal
power and sophistication.” Id., citing, Alack, 923 S.W.2d
at 338 n.4.
Similarly, numerous other Missouri cases have applied
the principle that ambiguity depends on context and the
sophistication of the consumer to other types of contract
provisions that attempt to limit an unsophisticated party’s
rights. Importantly, this Court applied these principles to
a contract purporting to waive the right to jury trial in
Malan Realty Investors, Inc. v. Harris, 953 S.W.2d 624
(Mo. banc 1997), stating the fundamental right to “a jury
trial may be waived by contract .... However ... [there is
a] real concern [in such situations regarding] the relative
bargaining powers of the parties.” Id. at 627. To determine
the validity of a jury trial waiver, Malan took into account
several factors, including the “disparity in bargaining
power between the parties [and] the business acumen of
the party opposing the waiver.” Id.
Various federal courts similarly have applied Purcell’s
analysis and principles, considering the sophistication of
the parties in deciding whether fundamental rights may

80a
Appendix D
be contractually waived. See, e.g., Lift Truck Lease &
Serv., Inc. v. Nissan Forklift Corp., N. Am., 2013 U.S.
Dist. LEXIS 85183, 2013 WL 3092115, at *2 (E.D. Mo.
June 18, 2013) (“In Missouri, sophisticated parties may
contract to relinquish fundamental rights[.]”); Sports
Capital Holdings (St. Louis), LLC v. Schindler Elevator
Corp. & Kone, 2014 U.S. Dist. LEXIS 49624, 2014 WL
1400159, at *2 (E.D. Mo. Apr. 10, 2014) (involving a dispute
over an elevator maintenance contract and noting, “It is
well-settled in Missouri that ‘[s]ophisticated parties have
freedom of contract — even to make a bad bargain, or to
relinquish fundamental rights’”).
This Court has recognized the importance of the
sophistication of the parties in considering the validity of
a forum selection clause as well. In High Life Sales Co. v.
Brown-Forman Corp., 823 S.W.2d 493 (Mo. banc 1992),
this Court noted, “Many courts have refused to enforce
a forum selection clause on the grounds of unfairness if
the contract was entered into under circumstances that
caused it to be adhesive.” Id. at 497 (citations omitted).
Based on this premise, this Court held the forum selection
agreement “was not unfair [because] it was between two
substantial and successful companies, drafted and agreed
upon by their respective counsel following give-and-take
negotiations on various provisions.” Id.
Missouri cases similarly have considered the
sophistication of the parties in determining the validity
of the terms of a lease waiver provision in Halls Ferry
Investments, Inc. v. Smith, 985 S.W.2d 848, 853 (Mo. App.
1998), stating, “While the lease failed to state that no

81a
Appendix D
such obligation existed, an ambiguity cannot be created
by silence, especially when both parties are sophisticated
bargainers.” Likewise, Missouri courts have “long ...
held that an ambiguity [in a contract generally] cannot
be created by silence, especially when both parties are
sophisticated bargainers.” Morelock-Ross Properties, Inc.
v. English Vill. Not-for-Profit Sewer Corp., 308 S.W.3d 275,
280 (Mo. App. 2010) (determining a contract for sewage
collection services between sophisticated parties could
not be rendered ambiguous on the grounds it failed to
expressly mention how certain fees should be collected)
(citations and quotations omitted).
These cases are not merely “exceptions” that
can be ignored in determining the meaning of the
arbitration clause. They are the rule in cases involving
the validity under Missouri law of a waiver of rights by an
unsophisticated consumer. When dealing with a contract
in which the parties have such unequal bargaining power,
the principle set out in Purcell that “ambiguity depends
on context” and the sophistication of the party is not an
exception to the general rule regarding interpretation,
applicable (for some unexplained reason) only in the case
of waivers of the right to sue for negligence. Indeed, it
would make no sense to allow consideration of a party’s
sophistication in that context but no other. Rather,
these are established principles of Missouri contract
law, applicable to the many kinds of waivers of litigation
rights contained in contracts between sophisticated and
unsophisticated parties.

82a
Appendix D
For these reasons, when, as here, the issue is the
validity of an unsophisticated consumer’s waiver of
litigation rights, Missouri’s consistent rule has been to
consider the lack of sophistication of one of the parties in
determining how that party would interpret the waiver.
This is the only way to treat an arbitration clause the same
as other contract clauses are treated under Missouri law,
which the majority concedes is required by the Federal
Arbitration Act (FAA). The waiver of the right to have a
judge determine the issue of arbitrability, like the a waiver
of the right to sue for negligence, the right to jury trial,
and the right to select one’s forum, should be considered
“in context” and in light of the relative sophistication of
the parties. Indeed, it must be considered in the same way
as are other comparable contractual waivers in Missouri.
See Rent-A-Ctr., 561 U.S. at 68; Brewer v. Mo. Title Loans,
364 S.W.3d 486, 497 (Mo. banc 2012) (arbitration provisions
are required to be treated the same as, and subject to the
same defenses as, other contract provisions).
The majority does not cite any contrary Missouri
cases. Instead, it relies on a number of United States
court of appeals cases. While most of those cases do hold
incorporation of the AAA rules unambiguously waives the
right to have a court determine arbitrability, those cases
do not govern here for numerous reasons.
First, the FAA leaves the question of who should
decide contract formation issues to the parties to
determine by contract; it does not require that these
issues be delegated to the arbitrator. Second, as noted
earlier, the FAA requires arbitration clauses be treated

83a
Appendix D
the same as other comparable contract provisions in the
state. Rent-A-Ctr., 561 U.S. at 68-69. In this case, that
means the arbitration clause should be governed by the
same principles of incorporation by reference, context, and
the sophistication of the consumer as are other contractual
waiver provisions, for these are general principles of
Missouri contract law. For that reason, it does not matter if
under federal law the AAA incorporation provision would
be considered unambiguous; this is a matter of state law.
See State v. Storey, 901 S.W.2d 886, 900 (Mo. banc 1995)
(federal interpretation of Missouri law is not binding on
Missouri courts); Brewer, 364 S.W.3d at 492 (“[Federal
law] permits state courts to apply state law defenses to
the formation for the particular contract at issue on a
case-by-case basis.”).
Third, and even more importantly, all of the federal
cases addressing delegation of the arbitrability issue by
incorporation of the AAA rules except Fallo v. HighTech Institute, 559 F.3d 874 (8th Cir. 2009), involve a
sophisticated business entity or executive.15 As noted in
Brennan v. Opus Bank, 796 F.3d 1125, 1130-31 (9th Cir.
2015), the rest of these federal cases simply do not address
15. See Petrofac, Inc. v. DynMcDermott Petroleum Operations
Co., 687 F.3d 671, 673-74 (5th Cir. 2012) (dispute between a
subcontracting corporation against the general contractor company);
Qualcomm Inc. v. Nokia Corp., 466 F.3d 1366, 1368 (Fed. Cir.
2006) (patent infringement dispute between telecommunication
corporations); Terminix Int’l Co. v. Palmer Ranch Ltd. P’ship, 432
F.3d 1327, 1329 (11th Cir. 2005) (dispute between limited partnerships
arising from 20 extermination service contracts); Contec Corp. v.
Remote Solution Co., 398 F.3d 205, 207 (2d Cir. 2005) (indemnification
dispute between electronics corporations).

84a
Appendix D
whether delegation by incorporation would apply in a
consumer case or one involving an unsophisticated party.
Neither do any of these cases suggest the FAA requires
them to find that incorporation of the AAA rules is
sufficient to delegate the issue of arbitrability. Delegation
of arbitrability is simply an inference they have drawn
in the sophisticated business transactions presented to
them. Id. Brennan said it would apply such a presumption
to the sophisticated entities in that case, but it expressly
left unresolved the question of whether “incorporation
of the A A A rules can be clear and unmistakable
evidence of delegation of arbitrarily where one party is
an unsophisticated consumer.” Ingalls v. Spotify USA,
Inc., 2016 U.S. Dist. LEXIS 157384, 2016 WL 6679561, at
*3 (N.D. Cal. Nov. 14, 2016); see also Quilloin v. Tenet
HealthSystem Phila., Inc., 673 F.3d 221 (3d Cir. 2012)
(refusing to find delegation of questions of arbitrability in
case in which contract said AAA rules governed).
The unsophisticated consumer issue has been directly
determined in numerous district court cases in the
Ninth Circuit. Even prior to Brennan, the district court
in Tompkins v. 23andMe, Inc., 2014 U.S. Dist. LEXIS
88068, 2014 WL 2903752, at *11 (N.D. Cal. June 25, 2014),
held incorporation by reference of the AAA rules is just
one factor in determining whether the parties intended
to delegate the arbitrability decision to the arbitrator.
Tompkins concluded “incorporation of the AAA rules
does not necessarily amount to ‘clear and unmistakable’
evidence of delegation, particularly when the party asked
to accept the agreement is a consumer.” Id. The court
subsequently refused to extend the presumption used in

85a
Appendix D
cases between sophisticated commercial parties to cases
involving consumers if the arbitration agreement itself
“lacks an express delegation provision on its face, so a
consumer would have to look up the AAA rules to find
[the delegation provision].”16 Id.
Since Brennan, “Every district court decision in [the
Ninth Circuit] to address the question ... has [followed
the Tompkins approach and] held that incorporation of
the AAA rules was insufficient to establish delegation in
consumer contracts involving at least one unsophisticated
party.” Ingalls, 2016 U.S. Dist. LEXIS 157384, 2016 WL
6679561, at *3; Money Mailer, LLC v. Brewer, 2016 U.S.
Dist. LEXIS 47928, 2016 WL 1393492, at *2 (W.D. Wash.
Apr. 8, 2016); Galilea, LLC v. AGCS Marine Ins. Co., 2016
U.S. Dist. LEXIS 45866, 2016 WL 1328920, at *3 (D. Mont.
Apr. 5, 2016); Vargas v. Delivery Outsourcing, LLC, 2016
U.S. Dist. LEXIS 32634, 2016 WL 946112, at *8 (N.D. Cal.
Mar. 14, 2016); Aviles v. Quik Pick Express, LLC, 2015
U.S. Dist. LEXIS 174960, 2015 WL 9810998, at *6 (C.D.
Cal. Dec. 3, 2015); Meadows v. Dickey’s Barbecue Rests.,
Inc., 144 F. Supp. 3d 1069, 1078 (N.D. Cal. 2015).
For example, in Meadows, after noting “an inquiry
about whether the parties clearly and unmistakably
delegated arbitrability by incorporation should first
16. While the court in Zenelaj v. Handybook Inc., 82 F. Supp.
3d 968, 974 (N.D. Cal. 2015), said Tompkins did not base its holding
on the fact it was a consumer case, Tompkins certainly treated the
matter as a fact question requiring consideration of the consumer’s
lack of sophistication and bargaining power. Prior to Brennan,
however, the Zenelaj decision had caused a circuit split on this issue.

86a
Appendix D
consider the position of those parties,” the court concluded
it is “much less reasonable” to find “‘clear and unmistakable’
evidence of delegation” for an “inexperienced individual,
untrained in the law,” such as a restaurant franchisee,
than it is for “a large corporation ... or a sophisticated
attorney.” 144 F. Supp. 3d at 1078.
Similarly, in Aviles, a truck driver filed suit against
the defendant trucking company, which moved to
compel arbitration. 2015 U.S. Dist. LEXIS 174960, 2015
WL 9810998, at *1. Even though the plaintiff was “an
independent contractor who operates his own trucking
business,” the court deemed him an unsophisticated party
because he was “untrained in the law” and it was “doubtful
that [he] actually understood the import of [the bolded
delegation clause’s] terms.” 2015 U.S. Dist. LEXIS 174960,
[WL] at *6. Based on the plaintiff’s unsophisticated status,
the court found there could not be clear and unmistakable
intent to delegate. Id.
Again, in Vargas, an “unsophisticated luggage
delivery driver” signed an arbitration agreement that
included a delegation provision incorporating the AAA
rules “without an opportunity to review the documents or
consult with an attorney.” 2016 U.S. Dist. LEXIS 32634,
2016 WL 946112, at *8. The court found the plaintiff’s
status as an “unsophisticated” party to be dispositive
and held the delegation clause to be invalid because
“incorporation of AAA’s rules does not evidence a ‘clear
and unmistakable’ intent to delegate disputes involving
unsophisticated employees.” 2016 U.S. Dist. LEXIS 32634,
[WL] at *7.

87a
Appendix D
In Galilea, the court held the plaintiffs, who had
formed an LLC for the purpose of owning a boat, were
“individual[s] not well-versed in arbitration law” and,
therefore, “unlikely to be aware that the AAA rules provide
for the arbitrator to determine his own jurisdiction.” 2016
U.S. Dist. LEXIS 45866, 2016 WL 1328920, at *3. The
court itself then determined arbitrability because the
plaintiffs were not “sophisticated part[ies] for [arbitration]
purposes.” Id.
Finally, in Money Mailer, the court held incorporation
of the AAA rules did not “show a ‘clear and unmistakable’
intent to delegate questions of arbitrability” when the
bound party was a “small business owner ... [with] no
legal experience.” 2016 U.S. Dist. LEXIS 47928, 2016 WL
1393492, at *2.
The middle district of Alabama in Palmer v. Infosys
Technologies Ltd., Inc., 832 F.Supp.2d 1341 (M.D. Ala.
2013), similarly refused to hold mere incorporation of
the AAA rules into an arbitration provision constitutes a
clear and unmistakable agreement to delegate the issue
of arbitrability. This is particularly true when the relevant
state law provides such issues are to be resolved by the
court, as Palmer found was the case in California and as
is the case in Missouri for the reasons already noted in
cases involving unsophisticated consumers. Id. at 1344.
The single United States court of appeals case on which
the majority relies involving a consumer, Fallo, simply
assumed the incorporation rule applied in the consumer
context before it, without recognizing the cases it relied

88a
Appendix D
on were commercial cases. 559 F.3d at 878-79. Further,
while Fallo says it affirmed delegation of arbitrability to
the arbitrator, it then proceeded to interpret delegation as
including only the question of what claims were subject to
arbitration, for it went on to consider the merits of Fallo’s
unconscionability challenge rather than leaving that issue
to the arbitrator. Id. Fallo has been further limited by
the Eighth Circuit’s decision in Nebraska Machinery
Co. v. Cargotec Solutions, LLC, 762 F.3d 737, 741 n.2 (8th
Cir. 2014), which said the question of the existence of an
agreement to arbitrate is for the court.
Far more persuasive is the decision by the Montana
Supreme Court in Global Client Solutions v. Ossello, 2016
MT 50, 382 Mont. 345, 367 P.3d 361 (Mont. 2016), that, like
the federal district court cases just discussed, rejected
the idea there is a “‘general rule’ that incorporation of
the AAA rules into an arbitration clause constitutes an
agreement to arbitrate arbitrability.” Id. at 369. Noting
the only cases finding otherwise “almost exclusively
involve[d] arbitration disputes between sophisticated
parties in commercial settings,” Ossello refused to find
the parties had agreed to arbitrate arbitrability, noting
“the AAA rules [were] not part of the record and neither
the DAA nor [the creditor’s] arguments specify which of
the multiple sets of commercial or consumer AAA rules
[were] supposedly incorporated [into the contract].” Id.
While here, as the majority notes, attorneys for both
parties located the relevant AAA rules and attached them
to their motions, the question is not what sophisticated
legal minds can figure out today about the AAA rules but
rather what a student such as Mr. Pinkerton understood

89a
Appendix D
at the time. As in Ossello, the AAA rules were neither
attached nor explained at the only time that is relevant
in determining Mr. Pinkerton’s intent.
In Morgan v. Sanford Brown Institute, 225 N.J. 289,
137 A.3d 1168 (N.J. 2016), the Supreme Court of New
Jersey held an arbitration delegation provision in an
enrollment agreement between student-plaintiffs and a
college that said it was to be administered according to
AAA rules was unenforceable because it “did not clearly
and unmistakably” show intent to “delegate arbitrability.”
Id. 1182. The contract in question was written “in ninepoint font” and included a “more than 750-word arbitration
clause set forth in thirty-five unbroken lines.” Id. at 1181.
The court noted, “The meaning of arbitration is not selfevident to the average consumer.” Id. at 1180. It concluded,
therefore, that such a provision could not be enforceable
unless it “explain[ed] in some broad or general way that
arbitration is a substitute for the right to seek relief in
our court system.” Id. at 1179.
The majority just waves off these cases by saying
they are not consistent with Missouri law. But for all of
the reasons already discussed, they are indeed consistent
with Missouri law’s recognition that the sophistication of
the signer affects the determination whether a contract
waiver is ambiguous. It is the majority that is incorrectly
treating an arbitration clause differently than it treats
other contractual attempts to waive the litigation rights
of an unsophisticated consumer.

90a
Appendix D
Under these settled principles of Missouri law, while
a consumer signing a student enrollment form including
an arbitration agreement may understand the right to sue
over certain types of claims in court are being waived,
that does not apprise the student that the validity of the
waiver itself will be determined by the arbitrator rather
than by a court. Just as Purcell and the other cited cases
recognized that use of general language about waivers
might be insufficient in a consumer context involving an
unsophisticated party, so here use of general incorporation
by reference language should not be sufficient to constitute
irrebuttable proof of an intent to delegate arbitrability.
Indeed, the concerns expressed in those cases have even
greater application because the United States Supreme
Court has held the party seeking to require arbitration
has the burden of proving by “clear and unmistakable”
evidence that the other party intended to delegate
arbitrability to the arbitrator.
At a minimum, this is a question of fact that
should be put to the parties’ proof, not decided by an
irrebuttable presumption. As Alack stated, “our law on
such an important point cannot be so out of step with the
understanding of our citizens.” 923 S.W.2d at 337. This
Court should recognize a generally applicable principle
of Missouri contract law that when a consumer contract
purports to incorporate by reference another writing, the
court should determine whether the parties actually know
and understand the provisions to be included.
Applying these principles here, Mr. Pinkerton was a
young, non-college educated student who was trying to

91a
Appendix D
go to school to learn how to repair aircraft engines. The
school he attended is a large for-profit corporation. The
school did not provide Mr. Pinkerton with a copy of the
AAA rules. Nothing in the contract explains the content
of the AAA rules even generally, nor does the contract
explain where and how to find them. The contract does
not explain that, while the referenced rules were called
“commercial” rules at that time, they nonetheless applied
to consumers like Mr. Pinkerton and precluded him
from having a court decide whether the agreement or
the delegation provision was enforceable or binding. An
average consumer might well presume the rules are simply
that: rules governing the procedural aspects of arbitration,
not “rules” that actually take away the consumer’s rights.
Certainly nothing in the contract mentioned delegation of
arbitration decisions to an arbitrator. It is not surprising
that both Mr. Pinkerton and the school’s agent testified
they had no idea what the AAA rules contained and no
idea what they required the arbitrator or the court to
decide. Neither said they understood the rules delegated
to an arbitrator the arbitrability issue itself.
On these facts, a trial court certainly could find Mr.
Pinkerton did not “clearly and unmistakably” intend to
delegate arbitrability to an arbitrator. This Court should
remand the case for a factual determination whether
Mr. Pinkerton actually knew and understood what the
provisions of the AAA rules were, where he could find
them, and whether, as a matter of fact, he clearly and
unmistakably showed an intent to delegate arbitrability
issues to an arbitrator.

92a
Appendix D
II. M R . P I N K E R T O N S P E C I F I C A L L Y
CHALLENGED THE DELEGATION PROVISION
The majority notes the Supreme Court has held that to
challenge the delegation of arbitrability, a party has to have
challenged the provision specifically. The majority then
states Mr. Pinkerton failed to do so in the trial court.17 The
latter statement is factually incorrect. The record clearly
shows Mr. Pinkerton argued — in opposition to the motion
to refer the matter to arbitration — that the arbitration
agreement, including the delegation clause, was invalid.
Indeed, in his suggestions in opposition to the defendant’s
renewed motion to compel arbitration, in response to the
school’s claim he had not raised the issue specifically, Mr.
Pinkerton used capital letters for emphasis in stating he
did raise the issue and repeated he “disputes the existence
and enforceability of any agreement to delegate issues
of arbitrability to an arbitrator.” He similarly argues in
this Court that the putative delegation provision does
“not delegate any threshold issues to an arbitrator.” This
issue was preserved.

17. The Supreme Court recognizes two types of challenges
to the validity of arbitration: “One type challenges specifically the
validity of the agreement to arbitrate. ... The other challenges the
contract as a whole ....” Buckeye Check Cashing, Inc. v. Cardegna, 546
U.S. 440, 444, 126 S. Ct. 1204, 163 L. Ed. 2d 1038 (2006). A challenge
to a delegation provision within an arbitration agreement must be
made to that provision specifically as distinct from a challenge to
the arbitration agreement as a whole. Rent-A-Ctr., 561 U.S. at 70-72.

93a
Appendix D
III. U NCONSCIONA BI LI T Y IS A CON T R ACT
FORMATION ISSUE
While the majority recognizes “this Court has held
that unconscionability is a state law defense to contract
formation,” the majority nonetheless unnecessarily creates
uncertainty by suggesting it is not sure why this is the
case because “conscionability is not an essential element
of contract formation. As such, while unconscionability is
a defense to contract formation and, therefore, a contract’s
validity and enforceability, it is not an issue of whether a
contract has ever been concluded.” Slip op. at *20 (citations
and quotation omitted).
This dicta interprets the term “contract formation”
more narrowly than does the Supreme Court. Indeed, as
this Court explained in Brewer v. Missouri Title Loans,
364 S.W.3d at 492 n.3:
While Missouri courts traditionally have
discussed unconscionability under the lens of
procedural unconscionability and substantive
unconscionability, Concepcion instead dictates a
review that limits the discussion to whether state
law defenses such as unconscionability impact
the formation of a contract. ... Accordingly, the
analysis in this Court’s ruling today — as well as
this Court’s ruling in Robinson v. Title Lenders,
Inc., — no longer focuses on a discussion of
procedural unconscionability or substantive
unconscionability, but instead is limited to a
discussion of facts relating to unconscionability
impacting the formation of the contract.

94a
Appendix D
(Citations and quotation omitted.)
In other words, the unconscionability of the terms
of a contract may be such that it negates the formation
of the contract at all, or the unconscionability may
instead impact enforcement of particular terms or of the
contract as a whole. Robinson pointed out the former
type of unconscionability in formation is exemplified by
“procedural” unconscionability such as “high pressure
sales tactics, unreadable fine print, or misrepresentation
among other unfair issues in the contract formation
process.” Robinson v. Title Lenders, Inc., 364 S.W.3d 505,
508 n.2 (Mo. banc 2012), quoting, State ex rel. Vincent v.
Schneider, 194 S.W.3d 853, 858 (Mo. banc 2006). Brewer
advised that in cases otherwise subject to arbitration,
“Future decisions by Missouri’s courts addressing
unconscionability likewise shall limit review of the defense
of unconscionability to the context of its relevance to
contract formation.” 364 S.W.3d at 493 n.3.
The Supreme Court has recognized unconscionability
may affect contract formation or may be an issue of
contract enforcement.18 The same reasoning applies to
18. E.g., Granite Rock Co. v. Int’l Bhd. of Teamsters, 561 U.S.
287, 304 n.9, 130 S. Ct. 2847, 177 L. Ed. 2d 567 (2010) (“The parties’
dispute about the [contract]’s ratification date presents a formation
question in the sense above, and is therefore not on all fours with,
for example, the formation disputes we referenced in Buckeye Check
Cashing, Inc. v. Cardegna, 546 U.S. 440, 444, n. 1, 126 S.Ct. 1204,
163 L.Ed.2d 1038 (2006), which concerned whether, not when, an
agreement to arbitrate was ‘concluded.’”); Buckeye, 546 U.S. at 444
n.1 (“The issue of the contract’s validity is different from the issue
whether any agreement between the alleged obligor and obligee

95a
Appendix D
other defenses such as duress or fraud. Brewer and relevant
Supreme Court cases recognize duress as a defense against
formation, but lack of duress is not an essential element of
contract formation. Baker v. Bristol Care, Inc., 450 S.W.3d
770, 782 (Mo. 2014) (“[A] contract is voidable due to ... duress
... but such [a] defense [has] nothing to do with contract
formation. In fact, [duress] defenses assume a contract
was formed.”) (citations omitted). It does not follow that a
party alleging duress is not raising a contract formation
challenge. The same is true of fraud.
For these reasons, I dissent from the majority’s holding
that Mr. Pinkerton did not preserve the issue of delegation,
its questioning of the fact that unconscionability has been
recognized as an issue of contract formation, and its holding
that, in a consumer case such as this, the mere reference to
incorporation of the AAA rules, without their attachment
and without specifically referencing the incorporation
of the delegation provision, is unambiguous. I believe
the language would be ambiguous to an unsophisticated
party if the Court does as Purcell requires and considers
the context and the parties’ relative sophistication. The
case should be remanded for determination of the factual
question whether an unsophisticated student such as Mr.
Pinkerton clearly and unmistakably intended to delegate
the issue of arbitrability to the arbitrator.
/s /					
Laura Denvir Stith, Judge
was ever concluded.”). Buckeye went on to list several examples of
formation questions, including “whether [a party] ever signed the
contract, whether the signor lacked authority to commit the alleged
principal, and whether the signor lacked the mental capacity to
assent.” 546 U.S. at 444 n.1 (citations omitted).

96a
Appendix EOF THE CIRCUIT
APPENDIX E — OPINION
COURT OF JACKSON COUNTY, MISSOURI
AT KANSAS CITY, DATED FEBRUARY 2, 2015
IN THE CIRCUIT COURT OF JACKSON
COUNTY, MISSOURI AT KANSAS CITY
STEVEN PINKERTON,
Plaintiff, et al.,
v.
TECHNICAL EDUCATION SRVCS INC D/B/A
AVIATION INST. OF MAINT.
Defendant, et al.
Case No. 1416-CV10007
Division 9
ORDER/JUDGMENT
Pending before the Court is Defendants’ Motion To
Dismiss, Or In The Alternative, To Compel Arbitration And
To Stay This Proceeding; Defendants’ Motion To Stay This
Court’s September 8, 2014 Order And Renewed Motion
To Compel Arbitration; Plaintiff’s Motion To Enforce
Discovery; and Plaintiff’s Motion For Enlargement Of
Time To Complete Arbitration-Related Discovery. For
the following reasons, Defendants’ Motion To Dismiss, Or
In The Alternative, To Compel Arbitration And To Stay
This Proceeding is granted in part and denied in part;

97a
Appendix E
Defendants’ Motion To Stay This Court’s September 8,
2014 Order And Renewed Motion To Compel Arbitration
is granted; Plaintiff’s Motion To Enforce Discovery and
Plaintiff’s Motion For Enlargement Of Time To Complete
Arbitration-Related Discovery are denied as moot.
BACKGROUND
April 30, 2014, Plaintiff Steven Pinkerton (“Pinkerton”)
filed a Petition against Technical Education Services Inc.
d/b/a Aviation Institute of Maintenance (“AIM”), Adrian
Rothrock (“Rothrock”), and W. Gerald Yagen (“Yagen”)
(collectively “Defendants”) alleging Defendants deceived
Pinkerton into attending AIM and benefited from
Pinkerton’s enrollment at AIM. Pinkerton advances causes
of action for Violations of the Missouri Merchandising
Practices Act, Fraudulent Misrepresentation, Negligent
Misrepresentation, Money Had and Received, and Unjust
Enrichment against Defendants arising out of transactions
between Defendants and Pinker ton sur rounding
Pinkerton signing the Aviation Maintenance Technical
Engineer Student Enrollment Agreements (“Enrollment
Agreements”) on September 8, 2009.1 Pinkerton alleges
that Defendants should be held jointly and severally liable
because Rothrock was acting within the course and scope
of his employment with AIM and Yagen operates AIM
with other Yagen-owned enterprises, all with common
control and without compliance with corporate formalities
so as to pierce the corporate veil.
1. Pinkerton signed a second Enrollment Agreement on March
24, 2010 which was identical to the Enrollment Agreement signed
on September 8, 2009.

98a
Appendix E
On June 19, 2014 Defendants filed a Motion To
Dismiss, Or In The Alternative, To Compel Arbitration
And To Stay This Proceeding asking the Court to enforce
the arbitration agreements within the Enrollment
Agreements signed by Pinkerton. Defendants argue
Pinkerton signed enforceable arbitration agreements
which provide jurisdiction over these claims, and the
existence, scope, or validity of the arbitration agreements,
to an arbitrator. Pinkerton filed suggestions in opposition
to the enforcement of the arbitration agreements on June
30, 2014 contending that: a) the issue of whether the parties
entered into an enforceable arbitration agreement is for
the Court to decide, b) even if the arbitration agreement is
enforceable, the Court may not dismiss the case, c) Yagen
and Rothrock are not parties to the arbitration agreement
and cannot enforce the arbitration agreement, and d) no
enforceable agreement was ever formed.
Defendants filed a Motion To Stay This Court’s
September 8, 2014 Order and Renewed Motion To
Compel Arbitration on November 4, 2014 asking the
Court to stay its September 8, 2014 Order permitting
limited discovery and to compel arbitration because the
arbitration agreements provide a clear and unmistakable
expression of the parties’ intent to leave any question of
validity or existence to an arbitrator. Defendants further
state Pinkerton never challenged the delegation provisions
of the arbitration agreements which reserves this
gateway question to an arbitrator. On November 14, 2014,
Pinkerton filed suggestions in opposition to Defendants’
Motion arguing that no Missouri Supreme Court Rule
sanctions the use of a motion for reconsideration and that

99a
Appendix E
Pinkerton disputes the existence and enforceability of
any agreement to delegate issues of arbitrability to an
arbitrator.
ANALYSIS
I.

T H E DE L E G AT IO N PR OV I S IO N OF
T H E A R BI T R AT IO N AG R E E M E N T S I S
ENFORCEABLE

Defendants first argue Pinkerton signed enforceable
arbitration agreements that cover Pinkerton’s claims
and any challenge to the enforceability of the arbitration
agreements must be decided by an arbitrator. Pinkerton
contends that the enforceability of the arbitration
agreements should be decided by a court and not an
arbitrator because an enforceable arbitration agreement
was never formed. Further, Pinkerton contends that the
delegation provision fails because the incorporation of the
American Arbitration Association (“AAA”) Rules is not
clear and unmistakable. 2
The parties do not dispute that the arbitration
agreements are governed by the Federal Arbitration Act
2. The absence of any mention of inadequacy of consideration
or unconcsionability as it relates to the delegation provision in
Pinkerton’s complaint and initial opposition makes clear that
Pinkerton’s position in his opposition filed on November 14, 2014
that the delegation provision is unconscionable and fails for lack of
consideration was not Pinkerton’s true contention against compelling
arbitration.

100a
Appendix E
(“FAA’’)3 Under the FAA, the determination of whether
a valid arbitration agreement exists is presumptively
left to the courts, but the “parties may eliminate that
presumption by providing clear and unmistakable
language to the contrary.” AT&T Techs. v. Commc’ns
Workers of Am., 475 U.S. 643, 649; Koch v. Compucredit
Corp., 543 F.3d 460,463 (8th Cir. 2008). “[P]arties can
agree to arbitrate ‘gateway’ questions of ‘arbitrability,’
such as whether the parties have agreed to arbitrate or
whether their agreement covers a particular controversy.”
Rent-A-Center, W, Inc. v. Jackson, 561 U.S. 63, 68-69
(2010).
An arbitration provision that incorporates the AAA
Rules provides “a clear and unmistakable expression of
the parties’ intent to reserve the question of arbitrability
for the arbitrator and not the court.” Fallo v. High-Tech
Institute, 559 F.3d 874, 878 (8th Cir. 2009). The majority of
circuits agree with this interpretation. See United States
ex ref. Beauchamp & Shepherd v. Academi Training Ctr.,
2013 U.S. Dist. LEXIS 46433, at 27* (E.D. Va. 2013). In
order to incorporate the AAA rules, courts have held that
the arbitration agreement needs to contain mandatory
language regarding the use of AAA rules and that the
3. Section 2 of the FAA “is a congressional declaration of a
liberal federal policy favoring arbitration agreements.” Moses H.
Cone Mem’l Hosp. v. Mercury Constr. Corp., 460 U.S. 1, 24 (1983).
Under the FAA “questions of arbitrability must be addressed with
a healthy regard for the federal policy favoring arbitration.” Id.;
see also Netco, Inc. v. Dunn, 194 S.W.3d 353, 360 (Mo. 2006). In
examining an arbitration agreement, this Court must do so with
this overriding policy in mind.

101a
Appendix E
use of the phrase “in accordance with” or “conducted by”
provides sufficient incorporating language. Sys. Research
& Applications Corp. v. Rohde & Schwarz Fed. Sys., 840
F. Supp. 2d 935, 943-44 (E.D. Va. 2012).4
4. For specific examples of language held to have incorporated
AAA rules, see Fallo, 559 F.3d at 877 (“The arbitration provision
in the enrollment agreement states that disputes arising out of the
enrollment agreement shall be settled by arbitration in accordance
with the Commercial Rules of the [AAA].”) (emphasis added);
Terminix Int’l Co. LP v. Palmer Ranch Ltd. P’ship, 432 F.3d
1327, 1332 (11th Cir. 2005) (all three arbitration clauses at issue
provided that “arbitration shall be conducted in accordance with the
Commercial Arbitration Rules then in force of the [AAA]”’) rev’d on
other grounds, 280 F. App’x 829 (11th Cir. 2008); Qualcomm Inc. v.
Nokia Corp., 466 F.3d 1366, 1368 (Fed. Cir. 2006) (arbitration clause
“dictates that any such dispute ‘shall be settled by arbitration in
accordance with the arbitration rules of the [AAA]’”) (emphasis
added); Contec Corp. v. Remote Solution Co., 398 F.3d 205, 208 (2nd
Cir. 2005) (arbitration clause read: “[i]n the event the parties are
unable to arrive at a resolution, such controversy shall be determined
by arbitration ... in accordance with the Commercial Arbitration
Rules of the [AAA]”) (emphasis added); Citifinancial, Inc. v. Newton,
359 F. Supp. 2d 545, 549 (U.S. Dist. Miss. 2005) (arbitration clause
provided that “any Claim ... shall be resolved by binding arbitration
in accordance with ... the Expedited procedures of the Commercial
Arbitration Rules of the [AAA]”) (first emphasis added); Bayer
Cropscience, Inc. v. Limagrain Genetics C01p., 2004 U.S. Dist.
LEXIS 25070, at *4 (N.D. Ill. 2004) (arbitration clause provided
that “[t]he arbitration shall be conducted ... in accordance with the
prevailing commercial arbitration rules of the [AAA]”) (emphasis
added); Brandon, Jones, Sandall, Zeide, Kohn, Chalal & Musso,
P.A. v. MedPartners, Inc., 2001 U.S. Dist. LEXIS 21482, at 21
*(S.D. Fla. 2001) (“It is undisputed here that the relevant arbitration
provisions of the Agreement mandate that any arbitration shall be
conducted by the AAA under its auspices.”) (emphasis added), aff’d
on other grounds, 312 F.3d 1349 (11th Cir. 2002).

102a
Appendix E
The relevant portion of the arbitration agreements
found in the Enrollment Agreements at issue here read
as follows:
I agree that any controversy, claim, or dispute
of any sort arising out of or relating to matters
including, but not limited to: student admission,
enrollment, financial obligations and status as
a student, which cannot be first resolved by
way of applicable internal dispute resolution
practices and procedures, shall be submitted
for arbitration, to be administered by the
American Arbitration Association located
within Virginia Beach, Virginia, in accordance
with its commercial arbitration rules.
The clear and unmistakable language in the arbitration
agreements here incorporate the A A A Rules. The
language includes the use of the mandatory language
“shall be” and the proper incorporating language of
“in accordance with.” Thus the AAA Rules govern the
arbitration agreement and as such provide evidence of
the parties’ intent to follow the AAA Rules.
Further, A A A Rule 7 outlines the arbitrator’s
jurisdiction as “including any objections with respect
to the existence, scope or validity of the arbitration
agreement” and specifies that “[a] party must object to
the jurisdiction of the arbitrator ....” AAA R-7(a),(c). The
incorporation of AAA Rule 7 is a clear and unmistakable
expression of the parties’ intent to reserve the gateway
question of whether the parties agreed to arbitrate for
the arbitrator to decide.

103a
Appendix E
“An agreement to arbitrate a gateway issue is simply
an additional, antecedent agreement the party seeking
arbitration asks the ... court to enforce, and the [FAA]
operates on this additional arbitration agreement just as it
does on any other.” Rent-A-Center v. Jackson, 561 U.S. at
70. Section 2 of the FAA designates arbitration provisions
severable from a contract as a whole and, further,
provisions delegating gateway issues to the arbitrator
are severable from general arbitration provisions. Id. at
70-71. Accordingly, “unless [the party opposing arbitration
has] challenged the delegation provision specifically, we
must treat it as valid under § 2, and must enforce it under
§§ 3 and 4, leaving any challenge to the validity of the
Agreement as a whole for the arbitrator.” Id. at 72.
In Jackson, the arbitration agreement as a whole
was challenged as unconscionable, but the opponent of
enforcement failed to specifically challenge the delegation
provision. Id. at 72-73. The Supreme Court held that,
absent a specific challenge to the delegation provision, any
determination as to the conscionability of the arbitration
agreement as a whole must be left to the arbitrator. Id.
at 72; United States ex rel. Beauchamp & Shepherd,
2013 U.S. Dist. LEXIS 46433, at 25-26* (U.S. Dist. Va.
2013) (finding that the unconscionability challenge to the
validity of an arbitration agreement did not alter the
conclusion that incorporation of AAA rules delegating
arbitrability to the arbitrator was clear and unmistakable
and a stay pending completion of arbitration proceedings
was required, as the delegation provision had not been
specifically attacked as unconscionable or otherwise
invalid).

104a
Appendix E
In a recent decision, the Western District of Missouri
implemented the specific challenge requirement set forth
in Jackson. Johnson v. Rent-A-Center, 2014 Mo. App.
LEXIS 1227, *9-13 (Mo. Ct. App. Nov. 4, 2014). The Court
in Johnson found that the delegation provision must be
challenged specifically in order to submit the question to
a court stating “[i]n other words, [e]ven when a litigant
has specifically challenged the validity of an agreement to
arbitrate he must submit that challenge to the arbitrator
unless he has lodged an objection to the particular line in
the agreement that purports to assign such challenges to
the arbitrator- the so-called ‘delegation clause.”’ Johnson,
2014 Mo. App. LEXIS 1227, at *10 (Mo. Ct. App. Nov. 4,
2014) quoting Rent-A-Center v. Jackson, 561 U.S. at 76
(Stevens, J., dissenting) (emphasis in original). The opinion
was withdrawn because the respondent passed away prior
to the issuance of the Court’s Order, but the opinion is
predictive of future delegation provision enforcement
issues.
In Pinkerton’s Preliminary Suggestions In Opposition
To Defendants’ Motion To Dismiss Or To Compel
A rbitration, Pinkerton states that the arbitration
agreement is unenforceable and disputes that any
enforceable arbitration agreement was formed. Pinkerton
does not challenge the delegation provision specifically. 5
5. In Pinkerton’s June 30,2014 Motion To Stay Briefing And
Ruling On Defendant’s Motion To Dismiss Or To Compel Arbitration,
which was granted by this Court on September 8, 2014, Pinkerton
challenges the arbitration as unconscionable. However, the Motion
contains no specific challenge to the delegation provision of the
agreement.

105a
Appendix E
Since no challenge was lodged against the delegation
provision specifically, the provision is enforceable. The
provision provides for the delegation of the gateway
question of whether the patties agreed to arbitrate.
Thus, the issue of whether the arbitration agreement
was unconscionable is left to an arbitrator per the “clear
and unmistakable” intent of the parties expressed by
the incorporation of the AAA Rules into the Arbitration
Agreement.
II. THE CASE IS PROPERLY STAYED AND NOT
DISMISSED
Defendants request dismissal of the case, but, in
their pleadings, the Defendants state the Court should
stay the case pending arbitration. Pinkerton also argues
that even if the arbitration agreement is enforceable, the
court may only stay the case and not dismiss it. Missouri
Revised Statute§ 435.255.4 provides that “[a]ny action
or proceeding involving an issue subject to arbitration
shall be stayed if an order for arbitration or application
therefor has been made under this section ....” § 435.355.4
R.S.Mo. When arbitration is compelled, “the proper course
of action for the trial court ... is to stay the action pending
arbitration” rather than dismissal. Hewitt v. St. Louis
Rams P’ship, 409 S.W.3d 572, 574 (Mo. Ct. App. 2013).
Since arbitration is compelled in this case, the case is
stayed in this Court pending arbitration.

106a
Appendix E
III. DEFENDANTS YAGEN AND ROTHROCK CAN
ENFORCE THE ARBITRATION AGREEMENT
Pinkerton contends that Yagen and Rothrock cannot
enforce the arbitration agreement as they are not
signatories of the arbitration agreement. A nonsignatory
to an arbitration agreement may compel a signatory to
arbitrate under the theory that a plaintiff/signatory is
estopped from refusing to arbitrate. Netco, Inc. v. Dunn,
194 S.W.3d 353, 361 (Mo. 2006). The estoppel theory may
be applied “in cases where the defendant/non-signatory
was an ... alter ego of a signatory.” Id.; see Nitor Distrib.,
Inc. v. Dunn, 194 S.W.3d 339, 348 (Mo. 2006) (recognizing
that a nonsignatory that is being sued as an alter-ego/
piercing the corporate veil may utilize an arbitration
agreement); see also Arthur Andersen LLP v. Carlisle,
556 U.S. 624 (2009) (finding that a contract may be
enforced by or against nonparties to the contract through
traditional principles of state law such as piercing the
corporate veil, alter ego, waiver, and estoppel).
Pinkerton contends that Yagen is “not protected by
the corporate veil” and is “therefore jointly and severally
liable for the conduct alleged herein.” Pl.’s Pet. 3-4.
Yagen, a nonsignatory, is being sued as an alter ego of
AIM, a signatory. As such, Pinkerton may be compelled
to arbitrate by Yagen, and Pinkerton is estopped from
refusing to arbitrate with Yagen. Netco, Inc., 194 S.W.3d
353, 361 (Mo. 2006).
A nonsignatory may also enforce an arbitration
agreement when “the relationship between the signatory

107a
Appendix E
and nonsignatory defendants is sufficiently close that
only by permitting the nonsignatory to invoke arbitration
may evisceration of the underlying arbitration agreement
between the signatories be avoided.” Kohner Props. v.
SPCP Group VI, LLC, 408 S.W.3d 336, 344, (Mo. Ct. App.
2013) quoting CD Partners, LLC v. Grizzle, 424 F.3d
795 (8th Cir. 2005). A signatory and nonsignatory are
sufficiently close under an “alternative estoppel theory
when the relationship of persons, wrongs and issues
involved is a close one.” CD Partners, LLC, 424 F.3d at
799; Dunn Indus. Group, Inc. v. City of Sugar Creek,
112 S.W.3d 421, (Mo. 2003) (“[S]ignatories to contracts
containing an arbitration agreement [are] estopped from
avoiding arbitration with nonsignatories when the issues
the nonsignatories [are] seeking to resolve in arbitration
[are] intertwined with the agreement signed by the
signatory.”)
Pinkerton contends that Rothrock is unable to enforce
the arbitration agreement as a non­ signatory to the
agreement. Pinkerton, however, is suing Rothrock in his
capacity as an employee of AIM. Pl.’s Pet. 3. The claims
against Rothrock are the same claims asserted against
Yagen and AIM. The issues involved with the claims
against Rothrock will be very similar, if not identical,
to the issues involved with the claims against Yagen
and AIM. Furthermore, Rothrock, Yagen, and AIM are
entwined due to the shared goals and motivations for their
actions. Nonsignatory Rothrock is sufficiently close to
AIM and Yagen that by not permitting Rothrock to invoke
the arbitration agreement, the arbitration agreement
will be eviscerated as the suit against Rothrock will be
identical to the suits against AIM and Yagen.

108a
Appendix E
CONCLUSION
Therefore, for the reasons stated above, It is hereby
ORDERED Defendants’ Motion To Dismiss, Or In
The Alternative, To Compel Arbitration And To Stay
This Proceeding is granted in part and denied in part.
It is further
ORDERED Defendants’ Motion To Stay This Court’s
September 8, 2014 Order And Renewed Motion To Compel
Arbitration is granted. It is further
ORDERED Plaintiff’s Motion To Enforce Discovery
and Plaintiff’s Motion For Enlargement Of Time To
Complete Arbitration-Related Discovery are denied as
moot. It is further
ORDERED this case is stayed pending arbitration
and is set for a Status Review Conference on May 22,
2015, at 9:30 a.m.
02-Feb-2015
DATE

/s/				
JOEL P. FAHNESTOCK,
JUDGE

109a
Appendix
F
APPENDIX
F — STATUTORY
PROVISIONS INVOLVED
Federal A rbitration Act
9 U.S.C. § 2
A written provision in any maritime transaction or a
contract evidencing a transaction involving commerce
to settle by arbitration a controversy thereafter
arising out of such contract or transaction, or the
refusal to perform the whole or any part thereof, or
an agreement in writing to submit to arbitration an
existing controversy arising out of such a contract,
transaction, or refusal, shall be valid, irrevocable, and
enforceable, save upon such grounds as exist at law or
in equity for the revocation of any contract.

110a
Appendix F
9 U.S.C. § 3
If any suit or proceeding be brought in any of the
courts of the United States upon any issue referable
to arbitration under an agreement in writing for such
arbitration, the court in which such suit is pending,
upon being satisfied that the issue involved in such
suit or proceeding is referable to arbitration under
such an agreement, shall on application of one of the
parties stay the trial of the action until such arbitration
has been had in accordance with the terms of the
agreement, providing the applicant for the stay is not
in default in proceeding with such arbitration.

111a
Appendix F
9 U.S.C. § 4
A party aggrieved by the alleged failure, neglect,
or refusal of another to arbitrate under a written
agreement for arbitration may petition any United
States district court which, save for such agreement,
would have jurisdiction under title 28, in a civil action
or in admiralty of the subject matter of a suit arising
out of the controversy between the parties, for an
order directing that such arbitration proceed in the
manner provided for in such agreement. Five days’
notice in writing of such application shall be served
upon the party in default. Service thereof shall be
made in the manner provided by the Federal Rules of
Civil Procedure. The court shall hear the parties, and
upon being satisfied that the making of the agreement
for arbitration or the failure to comply therewith is
not in issue, the court shall make an order directing
the parties to proceed to arbitration in accordance
with the terms of the agreement. The hearing and
proceedings, under such agreement, shall be within
the district in which the petition for an order directing
such arbitration is filed. If the making of the arbitration
agreement or the failure, neglect, or refusal to perform
the same be in issue, the court shall proceed summarily
to the trial thereof. If no jury trial be demanded by
the party alleged to be in default, or if the matter in
dispute is within admiralty jurisdiction, the court shall
hear and determine such issue. Where such an issue is
raised, the party alleged to be in default may, except in
cases of admiralty, on or before the return day of the
notice of application, demand a jury trial of such issue,

112a
Appendix F
and upon such demand the court shall make an order
referring the issue or issues to a jury in the manner
provided by the Federal Rules of Civil Procedure,
or may specially call a jury for that purpose. If the
jury find that no agreement in writing for arbitration
was made or that there is no default in proceeding
thereunder, the proceeding shall be dismissed. If the
jury find that an agreement for arbitration was made
in writing and that there is a default in proceeding
thereunder, the court shall make an order summarily
directing the parties to proceed with the arbitration
in accordance with the terms thereof.

